<html>
<title> - H.R. 4775, OZONE STANDARDS IMPLEMENTATION ACT OF 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


         H.R. 4775, OZONE STANDARDS IMPLEMENTATION ACT OF 2016

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2016

                               __________

                           Serial No. 114-134
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                              ____________
                              
                              
                    U.S. GOVERNMENT PUBLISHING OFFICE                              
20-589 PDF                   WASHINGTON : 2016                    
__________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4621362906253335322e232a366825292b68">[email&#160;protected]</a>  




                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California7
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Mississippi            GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Pete Olson, a Representative in Congress from the State of 
  Texas, opening statement.......................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    91
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, prepared statement...............................    92

                               Witnesses

Bryan W. Shaw, Chairman, Texas Commission on Environmental 
  Quality........................................................     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................   137
Seyed Sadredin, Executive Director/Air Pollution Control Officer, 
  San Joaquin Valley Air Pollution Control District..............    17
    Prepared statement...........................................    19
Ali Mirzakhalili, Director, Division of Air Quality, Delaware 
  Department of Natural Resources & Environmental Control........    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................   145
Misael Cabrera, Director, Arizona Department of Environmental 
  Quality........................................................    40
    Prepared statement...........................................    42
Alan Matheson, Executive Director, Utah Department of 
  Environmental Quality..........................................    45
    Prepared statement...........................................    47

                           Submitted Material

H.R. 4775, the Ozone Standards Implementation Act of 2016, 
  submitted by Mr. Whitfield.....................................    94
Statement of Janet McCabe, Acting Assistant Administrator, Office 
  of Air and Radiation, Environmental Protection Agency, April 
  14, 2016, submitted by Mr. Whitfield...........................   106
Three letters of April 8, 2016, from San Joaquin Valley Air 
  Pollution Control District members to Hon. Kevin McCarthy, 
  submitted by Mr. Whitfield.....................................   110
Letter of March 22, 2016, from Paul N. Cicio, President, 
  Industrial Energy Consumers of America, to Mr. Olson, submitted 
  by Mr. Whitfield...............................................   113
Letter of April 13, 2016, from Cal Dooley, President and CEO, 
  American Chemistry Council, to Mr. Flores, et al., submitted by 
  Mr. Whitfield..................................................   114
Report, ``2015 Ozone Standard Exceedances in National Parks,'' 
  submitted by Mr. Whitfield.....................................   115
Resolution 07-8, Environmental Council of the States, September 
  17, 2013, submitted by Mr. Whitfield...........................   117
Report of June 2015, ``State Environmental Agency Perspectives on 
  Background Ozone & Regulatory Relief,'' Association of Air 
  Pollution Control Agencies, submitted by Mr. Whitfield.........   119
Letter of April 13, 2016, from the Allergy & Asthma Network, et 
  al., to Representatives in Congress, submitted by Mr. Rush.....   131
Letter of April 14, 2016, from the Center for Biological 
  Diversity, et al., to Representatives in Congress, submitted by 
  Mr. Rush.......................................................   133

 
         H.R. 4775, OZONE STANDARDS IMPLEMENTATION ACT OF 2016

                              ----------                              


                        THURSDAY, APRIL 14, 2016

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:18 a.m., in 
room 2322 Rayburn House Office Building, Hon. Ed Whitfield 
(chairman of the subcommittee), presiding.
    Members present: Representatives Whitfield, Olson, Barton, 
Shimkus, Latta, Harper, McKinley, Kinzinger, Griffith, Johnson, 
Long, Ellmers, Flores, Mullin, Rush, McNerney, Tonko, Green, 
Capps, Doyle, Castor, Sarbanes, Welch, Loebsack, and Pallone 
(ex officio).
    Staff present: Will Batson, Legislative Clerk; Allison 
Busbee, Policy Coordinator, Energy and Power; Rebecca Card, 
Assistant Press Secretary; Tom Hassenboehler, Chief Counsel, 
Energy and Power; A.T. Johnston, Senior Policy Advisor; Mary 
Neumayr, Senior Energy Counsel; Annelise Rickert, Legislative 
Associate; Dan Schneider, Press Secretary; Peter Spencer, 
Professional Staff Member, Oversight; Jeff Carroll, Democratic 
Staff Director; Jean Fruci, Democratic Energy and Environment 
Policy Advisor; Caitlin Haberman, Democratic Professional Staff 
Member; Rick Kessler, Democratic Senior Advisor and Staff 
Director, Energy and Environment; Dan Miller, Democratic Staff 
Assistant; Alexander Ratner, Democratic Policy Analyst; Andrew 
Souvall, Democratic Director of Communications, Outreach and 
Member Services; and Tuley Wright, Democratic Energy and 
Environment Policy Advisor.
    Mr. Whitfield. I'd like to call this hearing to order this 
morning and, of course, today we're going to be considering 
H.R. 4775, the Ozone Standards Implementation Act of 2016, 
sponsored by Vice Chairman Olson and others.
    [H.R. 4775 appears at the conclusion of the hearing.]
    And at this point I'd like to recognize myself for 5 
minutes for an opening statement.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    About 3 years ago, we had a series of forums on the Clean 
Air Act, and at those forums we had regulators from various 
States that came in and testified.
    And the gist of the testimony was that the Clean Air Act 
needed to be revisited. Everyone recognizes that it has been a 
successful piece of legislation.
    But we also know that every State is affected differently 
by the regulations coming out of EPA and certainly that is true 
on the proposed national ambient air quality standard that is 
being reviewed at this time.
    And as I said, most of the testimony indicated that there 
are some areas of the Clean Air Act, because of ambiguities and 
deadlines set, that needed to be revisited by the--by the 
Congress.
    Now, we find ourselves in a predicament though where the 
Clean Air Act is one of those polarizing pieces of legislation 
that has done a lot of good, and it is polarizing primarily 
because of the Clean Power Plan, in my humble opinion.
    As you know, Congress refused to adopt legislation to help 
the president in his negotiations in Copenhagen or Paris 
because the majority in Congress simply disagreed with what was 
being done in that area.
    On the other hand, the proponents of the Paris agreement 
and the Clean Power Plan feel very strongly that the president 
needed to proceed in that way.
    And so, as I said, Congress didn't act. It was adopted by 
regulation and what has happened is that it has become a 
polarizing piece of regulation because 27 States have filed 
lawsuits and we see more and more lawsuits being filed on these 
regulations coming out of EPA.
    So on the Republican side, you know, we sort of drew a line 
in the sand. Democrats drew a line in the sand. But on national 
ambient air quality standards, I think many States, whether 
they be perceived as Republican States or Democratic States, 
agree that there needs to be some adjustments here, and I 
believe that is what H.R. 4775 attempts to do.
    Now, I am going to just read a couple of comments from our 
commissioner from Texas and then those on the Democratic side 
will say well, that's from Texas. But then I am going to read a 
couple of comments from the commissioner from California.
    Mr. Shaw, in his testimony, says that Texas detailed our 
disagreements with the EPA's conclusions and formal comments 
during the rule making process. We also traveled to Washington 
to meet personally with Administrator McCarthy to make her 
aware of significant flaws in the studies EPA relied on in 
coming up with this new standard.
    The EPA nonetheless lowered the standard and now my agency 
is challenging the validity of this standard in court, and I 
won't go into the details of it.
    Now, in California, I want to just read an excerpt from a 
statement there. I don't think anyone views California as a red 
State, or a Republican State, but this is what the commissioner 
says.
    The new ozone and PM 2.5 standards established by EPA 
approached the background pollution concentrations in many 
regions throughout the Nation including the San Joaquin Valley, 
and we know that Los Angeles can't meet their existing 
standard, much less this new standard.
    Now, I want to just go on and point out that he goes on to 
say the reality that we face today sets up regions such as the 
San Joaquin Valley for failure, leading to costly sanctions and 
severe economic hardships.
    We face these consequences despite having the toughest air 
regulations on stationary sources, the toughest air regulations 
on farms and dairies, tough air regulations on what residents 
can do within the confines of their own home, $40 billion spent 
by businesses on clean air, over $1 billion of public/private 
investment, toughest regulations on cars and trucks, toughest 
regulations on consumer products, reduced emissions by 80 
percent and still we can't meet the standards.
    So I look forward to our discussion today with our 
distinguished panelists, some from States that are not having a 
problem, others from States that are, and that's the reality of 
where we are today.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    This morning we will review the challenges States face in 
implementing the EPA's recently finalized ozone standards, as 
well as other challenges with the National Ambient Air Quality 
Standards program. The recent ozone standards will impose 
substantial compliance burdens on State and local governments 
while also jeopardizing economic growth and jobs.
    We will also discuss a bipartisan solution, H.R. 4775, the 
``Ozone Standards Implementation Act of 2016,'' which would 
create a more reasonable and streamlined approach to 
implementing current ozone standards. I want to thank Reps. 
Olson, Flores, Latta, Cuellar, Leader McCarthy, and Whip 
Scalise for their great work on this legislation and I welcome 
our witnesses who represent a number of State and local 
environmental agencies that are on the front lines of 
implementing these EPA rules.
    EPA's recently finalized National Ambient Air Quality 
Standards for ozone would impose an additional layer of 
regulation on States that are currently in the process of 
implementing stringent ozone standards set by the agency in 
2008. Those standards revised the previous standards set in 
1997 and established a level of 75 parts per billion. However, 
the EPA did not finalize the necessary implementing regulations 
for these 2008 standards until March of 2015, and States are 
only starting to comply with them.
    Nonetheless, the agency decided to create an additional 
ozone standard, this one at 70 parts per billion. And because 
the standards from 2008 have not been revoked, States face the 
prospect of implementing two ozone standards at the same time. 
Under the new standards, States would be required to begin 
later this year a complex regulatory process involving 
designations, State implementation plans, and new permitting 
programs, long before the 2008 standards have been fully 
implemented.
    As a practical matter, the new ozone standards present 
implementation challenges because for certain parts of the 
country they are close to background levels. EPA projects 
annualized costs of $2 billion in 2025, including $1.4 billion 
for areas outside California and $800 million for California. 
Yet these annual costs will almost certainly be much higher 
since EPA acknowledges that ``unidentified controls'' will need 
to be discovered to meet the new standards in some of these 
areas--in other words, the agency does not really know how 
States can comply, so it is unclear what the ultimate price tag 
will be.
    This new burden arrives at a time when State and local 
governments face other expensive EPA mandates. It represents 
another headwind for job creators, since new permitting 
requirements have already begun to be implemented. Further, 
potentially hundreds of counties will be designated as being in 
``nonattainment'' as early as next year.
    A ``nonattainment'' designation places limits on new 
construction, expansions and transportation projects, triggers 
a suite of new planning requirements, and subjects areas to 
potential penalties. Because of the designation, these counties 
will remain subject to continuing EPA requirements for decades, 
even after air monitoring shows the counties have attained the 
standards.
    H.R. 4775 offers a commonsense path forward, by allowing 
the 2008 ozone rule to continue being implemented, and for the 
2015 standards to be phased in on a more reasonable timeframe. 
EPA itself projects the vast majority of areas in the country 
would meet the new 70 parts per billion standard by 2025 under 
existing Federal rules and programs.
    Instead of forcing hundreds of counties to be needlessly 
categorized as ``nonattainment,'' this legislation builds on 
EPA's own projection that all but 14 counties would reach 
attainment by 2025 based on existing Federal measures. HR 4775 
would ensure these areas do not become subject to a suite of 
new paperwork and requirements that will divert limited State 
resources but will not contribute to improvements in air 
quality.
    There is no benefit to stacking a new rule on top of an 
unfinished earlier one. The bill makes practical changes to 
modify the current requirement that standards for ozone and 
other pollutants be reviewed every 5 years, and places the new 
deadline at no more than 10 years subject to the discretion of 
the administrator.
    EPA's own actions show that 5 years is not enough time and 
that this arbitrary deadline needs to be revised.
    The bill also imposes the commonsense requirement that EPA 
release implementing regulations and guidance at the same time 
it releases new standards, something that EPA should have been 
doing all along.
    Overall, the news on ozone is positive and we have seen a 
30 percent drop in ozone levels since 1980. EPA itself concedes 
ozone levels are declining and will continue to fall even in 
the absence of the new standards. This practical bill simply 
ensures that air quality continues to improve while avoiding 
unnecessary harm to State and local governments and to job-
creating businesses. Thank you.

    Mr. Whitfield. At this point, I would like to recognize the 
distinguished gentleman from Illinois, Mr. Rush, for 5 minutes.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, for holding 
today's legislative hearing on the Ozone Standards 
Implementation Act of 2016.
    It is unfortunate, Mr. Chairman, but I have some grave 
concerns with this bill. This bill will roll back important 
provisions of the Clean Air Act and hurt our Nation's efforts 
to protect air quality.
    For starters, H.R. 4775 would unacceptably delay 
implementation of the EPA's 2015 ozone standards for another 8 
years, even though these standards have not been updated since 
the Bush administration last did it in 2008.
    Additionally, Mr. Chairman, the bill would also mandate 
that EPA wait a decade before considering any new evidence 
regarding the health implementations from ozone and other 
harmful pollutants despite what the science may say.
    Mr. Chairman, for those of us who believe that science 
should inform policy making in regards to public health 
decisions, prohibiting EPA from revisiting the scientific 
evidence for at least a decade is an unacceptable risk that 
could result in potentially disastrous health impacts for the 
American people.
    Mr. Chairman, we know that breathing dirty pollutants such 
as ozone, carbon monoxide, lead, nitrogen, sulfur dioxide and 
many other dirty pollutants can lead to a host of health 
problems including asthma, inflammation of the lungs, 
respiratory disease and even premature death.
    Current research even suggests, Mr. Chairman, that ozone 
may also occur--may also cause damage to the central nervous 
system and may harm developing fetuses.
    Yet, Mr. Chairman, despite all the scientific research, 
this bill would stall the new ozone standards, permanently 
weaken the Clean Air Act and hamstring the EPA's ability to 
regulate these harmful contaminants both now and in the future.
    And think, Mr. Chairman--under this bill not only would 
States not have to comply with the 2015 standards until 2026, 
but parents were not even being born if their communities were 
in violation of clean air standards until the year 2025.
    Mr. Chairman, I can think of no greater benefit to the 
public interest denying--than denying citizens information 
directly tied to their health and their well-being. There is no 
benefit to the public interest.
    Mr. Chairman, instead of trying to stall the 2015 ozone 
standards and prohibit the EPA from updating the national 
ambient air quality standards regularly as H.R. 4775 would do, 
we should be heeding the warnings of doctors and scientists of 
not acting quickly enough to protect the public health.
    For these reasons among many others, I cannot support this 
bill, and I urge my colleagues to support it--to oppose it, 
rather, and I yield the rest of my time to Mr. McNerney from 
California.
    Mr. McNerney. Well, I thank the gentleman.
    I just want to thank Seyed Sadredin from San Joaquin Valley 
for appearing in front of the committee today. You're from the 
San Joaquin Air Valley Pollution Control District, which has 
one of the biggest challenges in the country. I look forward to 
your testimony and thank you again for showing up. With that, I 
yield back.
    Mr. Whitfield. Thank you. Mr. McNerney told me you were 
going to yield in 2 minutes, Mr. Rush, but, at this time, I 
recognize the gentleman from Texas, Mr. Olson, for 5 minutes.

   OPENING STATEMENT OF HON. PETE OLSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Olson. I thank my friend from Kentucky.
    The Clean Air Act is about cooperation. It is a balance 
between States and the Federal Government. I believe why we are 
here today is that we are not in any balance right now.
    I would ask all my colleagues to listen carefully to what 
these State officials will say this morning. They want clean 
air and will work aggressively to achieve it.
    We all want clean air within these communities, our 
families, our kids, and that is why the Clean Air Act is hugely 
important, but it is not perfect.
    Working together, we can improve it. We've picked out the 
low-hanging fruit to improve air quality. As we push more 
improvements, we must go after smaller sources. This provides 
economic pain at the local level and hides imperfections in the 
Clean Air Act.
    We can provide needed balance to this process. H.R. 4775 
does just that. Now, I would like to welcome one Texan with the 
cowboy hat on the panel, Dr. Bryan Shaw.
    He has been on the Texas Commission on Environmental 
Quality for almost a decade, has been the chairman since 2009. 
When he does manage to escape Austin, Texas, home of the 
University of Texas, Dr. Shaw returned to his own alma mater, 
Texas A&M University, where he is an associate professor. He 
spends much time of his research--he spends much of his time 
researching air pollution. He also finds time to drop by the 
Dixie Chicken for a nice Texas meal.
    Dr. Shaw has also worked here in DC. He is acting lead 
scientist for air quality at the Department of Agriculture and 
served as a member of EPA's science advisory board. He brings 
an incredible amount of depth of knowledge to this hearing. I 
want to welcome him with a proud small Aggie woo.
    I yield back.
    Mr. Whitfield. Would the gentleman yield to the gentleman 
from Texas?
    Mr. Olson. Yes, sir.
    Mr. Whitfield. Mr. Barton.
    Mr. Barton. That's whoop. I am an Aggie.
    I just want to welcome Dr. Shaw. Sorry I missed the earlier 
meeting but you've testified here before and we look forward to 
hearing what you have to say and, of course, all the other 
witnesses, and thank the chairman and ranking member for the 
hearing.
    Mr. Whitfield. At this time, the Chair recognizes the 
gentleman from New Jersey, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    The legislation that is the subject of today's hearing, the 
deceptively named Ozone Standards Implementation Act, has very 
little to do with implementing EPA's ozone standards and 
instead is focused on undermining the Clean Air Act.
    Make no mistake, H.R. 4775 is a broad attack on some of the 
most important and successful tenets of the Clean Air Act 
including health-based standards and protections for all 
criteria of pollutants.
    Since 1970, the foundation of the Clean Air Act has been a 
set of health-based air quality standards that EPA must set 
based solely on the latest science and medical evidence.
    Essentially, the standard sets the level of pollution that 
is safe to breathe. With these health-based standards as the 
goalpost, States then develop plans to control pollution and 
meet those goals.
    Costs and technological feasibility are front and center in 
this planning and States can identify which pollution control 
measures are best suited to meeting the standard in the most 
cost-effective way.
    This structure has been extraordinarily effective for 46 
years in cleaning the air and protecting public health 
including the health of sensitive groups like children and the 
elderly.
    H.R. 4775 would alter this proven approach. It would 
elevate cost considerations in the standard-setting process not 
just for ozone but also for carbon monoxide, sulfur oxides, 
nitrogen oxides, particle pollution and even lead.
    This would allow polluters to override scientists, leading 
to air quality standards based on profits rather than health 
and reversing decades of progress in cleaning our air.
    But H.R. 4775 goes even further, delaying development and 
implementation of national ambient air quality standards, or 
NAAQS, for all six criteria pollutants.
    The bill doubles the review period for all NAAQS, meaning 
any new evidence or science would only be considered every 10 
years. That's a dramatic move in the wrong direction on 
science-based decisionmaking.
    The legislation also includes a provision to alter the way 
that air quality monitoring data is interpreted, discounting 
air quality measurements taken during normal weather and 
climate cycles like heat waves and droughts.
    It's an environmental ``don't ask don't tell'' designed to 
make it appear that air quality is improving when it's not. We 
should eliminate pollution, not the record of its occurrence.
    The bill actually does manage to address implementation of 
the new ozone standards directly by delaying implementation by 
up to 8 years. When you combine this mandated delay with other 
features of this legislation we virtually guarantee that people 
living in areas with poor air quality will continue to be 
exposed to air pollution indefinitely.
    In fact, a number of the provisions in this bill impact the 
areas that have the most persistent problems with air 
pollution. We have some of those areas represented on the panel 
today.
    There are three fundamental things that we all need every 
day--food, water and air. When we enacted the Clean Air Act, we 
made a commitment to the public to make the air safe and 
healthy to breathe.
    H.R. 4775 breaks that commitment. It's simply a bad bill.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Mr. Chairman. The legislation that is the 
subject of today's hearing--the deceptively named ``Ozone 
Standards Implementation Act''--has very little to do with 
implementing EPA's ozone standards and instead is focused on 
undermining the Clean Air Act. Make no mistake: H.R. 4775 is a 
broad attack on some of the most important and successful 
tenets of the Clean Air Act, including health-based standards 
and protections for all criteria pollutants.
    Since 1970, the foundation of the Clean Air Act has been a 
set of health based air quality standards that EPA must set 
based solely on the latest science and medical evidence. 
Essentially, the standard sets the level of pollution that is 
``safe'' to breathe. With these health-based standards as the 
goal posts, States then develop plans to control pollution and 
meet these goals. Cost and technological feasibility are front 
and center in this planning and States can identify which 
pollution control measures are best suited to meeting the 
standard in the most cost-effective way.
    This structure has been extraordinarily effective for 46 
years in cleaning the air and protecting public health, 
including the health of sensitive groups like children and the 
elderly.
    H.R. 4775 would alter this proven approach. It would 
elevate cost considerations in the standard-setting process, 
not just for ozone, but also for carbon monoxide, sulfur 
oxides, nitrogen oxides, particle pollution and even lead. This 
would allow polluters to override scientists, leading to air 
quality standards based on profits rather than health, and 
reversing decades of progress in cleaning our air.
    But H.R. 4775 goes even farther, delaying development and 
implementation of National Ambient Air Quality Standards--or 
NAAQS for all six criteria pollutants. The bill doubles the 
review period for all NAAQS, meaning any new evidence or 
science would only be considered every 10 years. That's a 
dramatic move in the wrong direction on science-based 
decisionmaking.
    This legislation also includes a provision to alter the way 
that air quality monitoring data is interpreted, discounting 
air quality measurements taken during normal weather and 
climate cycles--like heat waves and droughts. It's an 
environmental ``don't ask, don't tell'' designed to make it 
appear that air quality is improving when it is not. We should 
eliminate pollution, not the record of its occurrence.
    The bill actually does manage to address implementation of 
the new ozone standard directly by delaying implementation by 
up to 8 years. When you combine this mandated delay with other 
features of this legislation, we virtually guarantee that 
people living in areas with poor air quality will continue to 
be exposed to air pollution indefinitely.
    In fact, a number of the provisions in this bill impact the 
areas that have had the most persistent problems with air 
pollution. We have some of those areas represented on the panel 
today.
    There are three fundamental things that we all need every 
day--food, water and air. When we enacted the Clean Air Act, we 
made a commitment to the public to make the air safe and 
healthy to breathe. H.R. 4775 breaks that commitment. It is 
simply a bad bill.
    Thank you, Mr. Chairman.

    Mr. Pallone. I wanted to--I have about 2 minutes. Did you 
want to make your statement? I will yield to Mr. McNerney.
    Mr. McNerney. No, I didn't do my duty and then yell out for 
the Warriors for winning 74 games this season. So, yay, 
Warriors.
    Mr. Olson. Seventy-three games.
    Mr. McNerney. My concern here----
    Mr. Olson. Seventy-three. They won 73.
    Mr. McNerney. Seventy-three. Well, I can give them an extra 
one.
    So anyway, I mean, my concern here is the issue with the 
Clean Air Act is it provides incentives for using new 
technology and many of the emission reductions are achieved 
through instead of funds to use new technology that both reduce 
emissions and reduce costs and that is possible through 
innovation.
    So we don't want to see the new law tear down that 
provision at all. But California is the home to two regions 
struggling with the worst air quality in the Nation.
    As I mentioned, the San Joaquin Valley has really 
struggles. Our pollution control district has done tremendous 
work. They continue to do tremendous work and they have a lot 
of challenges ahead of them, and I just want to see that this 
law actually helps our communities fight pollution rather than 
puts them in a straightjacket.
    So that is really what I was going to try and say with my 
earlier 2 minutes. So and with that, I yield back.
    Mr. Whitfield. The gentleman yields back. and that 
concludes the opening statements. So at this point, I would 
like to introduce our witnesses for the day.
    First of all, we have Dr. Bryan Shaw, who is Chairman of 
the Texas Commission on Environmental Quality. In fact, what I 
am going to do, I am just going to introduce you and let you 
give your opening statement. Then I will introduce each one of 
you when we call on you.
    So, Mr. Shaw, you are recognized for 5 minutes.

  STATEMENTS OF BRYAN W. SHAW, CHAIRMAN, TEXAS COMMISSION ON 
 ENVIRONMENTAL QUALITY; SEYED SADREDIN, EXECUTIVE DIRECTOR/AIR 
  POLLUTION CONTROL OFFICER, SAN JOAQUIN VALLEY AIR POLLUTION 
 CONTROL DISTRICT; ALI MIRZAKHALILI, DIRECTOR, DIVISION OF AIR 
      QUALITY, DELAWARE DEPARTMENT OF NATURAL RESOURCES & 
   ENVIRONMENTAL CONTROL; MISAEL CABRERA, DIRECTOR, ARIZONA 
    DEPARTMENT OF ENVIRONMENTAL QUALITY; AND ALAN MATHESON, 
  EXECUTIVE DIRECTOR, UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY

                   STATEMENT OF BRYAN W. SHAW

    Mr.  Shaw. Thank you.
    Good morning. Chairman Whitfield, Ranking Member Rush, 
members of the committee, thank you very much. A special thank 
you to Congressman Olson and Congressman Barton. I certainly 
have enjoyed the opportunity to work with you over the years.
    Good morning, and again, I am thankful for the opportunity 
to talk about an important issue this morning, specifically 
H.R. 4775, the Ozone Standards Implementation Act of 2016 
sponsored by Vice Chair Olson.
    My name is Dr. Bryan Shaw and I am the chairman of the 
Texas Commission on Environmental Quality. My agency's mission 
is to protect Texas public health and the environment in a way 
that's consistent with sustainable economic development.
    In carrying out that mission, we seek to bring together 
common sense, sound science and the law to ensure that 
environmental regulations are safe, fair and predictable.
    I am here today because the Environmental Protection 
Agency's recent action lowering the national ambient air 
quality standard for ground-level ozone is not consistent with 
those principles.
    As you all know, the EPA finalized their proposal to lower 
the standard from 75 to 70 parts per billion on October 26th of 
2015.
    The State's initial designation recommendations are due on 
October 1st of this year. The TCEQ detailed our disagreements 
with the EPA's conclusion and formal comments during the rule 
making process.
    We even traveled to Washington to meet personally with 
Administrator McCarthy to make her aware of the significant 
flaws in the studies EPA relied on in promulgating the new 
standard.
    The EPA nonetheless lowered the standard and now my agency 
is challenging the validity of that standard in court. While 
our voluminous comments and legal filings elaborating great 
detail on the myriad scientific and legal vulnerabilities with 
the new standard, I would like to briefly raise a few of the 
most troubling issues.
    First, the EPA claims that the new standard will provide 
annual health benefits between $2.9 billion and $5.9 billion, 
with a cost of only $1.4 billion. My agency's analysis suggests 
these figures are dramatically incorrect.
     For example, the EPA only includes industry costs in their 
analysis, not the States' or taxpayer costs, nor do they look 
at economic impacts like increased electricity costs.
    Another major flaw in the EPA's analysis is their 
quantification of the benefits that would flow from this new 
standard. The EPA's own analysis shows that lowering the 
standard even to the 65 ppb level will not significantly reduce 
asthma attacks.
    In addition, approximately two-thirds of the benefits the 
EPA claims would result from the new standard are not based on 
ozone reductions at all. In fact, they are based on reductions 
of an entirely different pollutant that is not the subject of 
this rule.
    Specifically, the EPA reasons that in taking the actions 
necessitated by this standard, States will also lower levels of 
fine particulate matter, or PM 2.5.
    The flaw in that reasoning is that, at least in Texas' 
case, levels of PM 2.5 are already below the standard set by 
EPA. Chief Justice Roberts recently questioned this practice 
when the EPA's Mercury and Air Toxics Standard was reviewed and 
rejected by the Supreme Court.
    While the court ultimately rejected the rule on other 
grounds, the Chief Justice suggested that EPA's co-benefits 
analysis might be an illegitimate way of muddling the differing 
regulatory schemes for each pollutant under the Clean Air Act.
    H.R. 4775 is a welcome step in the right direction. It 
seeks to defer the implementation of the new standard until 
2024, and it requires the EPA to spend more time studying and 
reviewing scientific literature and other factors before 
implementing new standards.
    By suspending the applicability of the new standard, this 
legislation will allow States to focus their limited resources 
on fully implementing the 2008 standard as well as a cascade of 
other new and expensive regulations coming out of EPA.
    Especially considering the cost of the negligible health 
and environmental benefits embodied by the new standard, a 
delay in implementing this standard is helpful indeed.
    More broadly, H.R. 4775 also seeks to make the NAAQS--the 
National Ambient Air Quality Standards--program applicable to 
all six criteria pollutants more efficient and effective.
    By lengthening the required review period from 5 to 10 
years, it will ensure the EPA does not rush to lower given 
standards only to comply with a statutory deadline. 
Furthermore, it will give States more time to comply with 
previous standards before getting saddled with more stringent 
standards and facing economic and developmental sanctions for 
nonattainment.
    I also support this legislation's addition of technological 
feasibility and possible adverse welfare, social, and economic 
effects to the list of factors the EPA can consider in revising 
a standard.
    As the Act is currently written and interpreted by the 
Supreme Court, the EPA is prohibited from considering whether 
or not the state of our technological capabilities would even 
make getting the required reductions possible.
    Put simply, the EPA could require States to make reductions 
that are literally impossible to achieve. The act's requirement 
that the EPA ignore technological and economic considerations 
might have made sense 40 years ago when it was initially 
passed.
    However, pollution levels have been lowered to such a 
degree that the law of diminishing returns has made it more and 
more difficult to continue to reduce pollutant levels at all, 
much less in a way that is not burdensome economically.
    Finally, H.R. 4775's directive to the EPA to begin timely 
issuance of implementing regulations and guidance solves a 
major issue that often confronts States like Texas.
    Without this protection, the EPA can and does require 
States to develop and propose new standards before the EPA 
itself has given States specific guidance for the standard. And 
so I understand how charged this issue can be but I appreciate 
Vice Chair Olson's efforts to streamline this process.
    And thank you for the opportunity to testify today.
    [The prepared statement of Mr. Shaw follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Thank you, Dr. Shaw.
    And now our next witness is Seyed--Mr. Seyed Sadredin, who 
is the Executive Director of Air Pollution Control for San 
Joaquin Valley Air Pollution Control District.
    You are recognized for 5 minutes.

                  STATEMENT OF SEYED SADREDIN

    Mr.  Sadredin. Thank you, Chairman Whitfield, Ranking 
Member Rush and members of the committee. It is an honor to be 
here before you today.
    My name is Seyed Sadredin and I am the executive director 
and air pollution control officer for the San Joaquin Valley 
Air Pollution Control District.
    With me today I have a number of local elected officials 
that serve on the governing board of the air district--Council 
Member Baines from the city of Fresno, Chairman of the Board 
Supervisor Worthley from Tulare County, and Supervisor Elliott 
from San Joaquin County.
    They serve on the District Governing Board and deal with a 
lot of the issues that we are about to talk about today.
    The area of our jurisdiction covers a 25,000 square mile 
region in the Central California, the beautiful area that is a 
big source of food throughout the Nation and throughout the 
world.
    We are the largest air district in the State of California, 
and today I am here as a public health official as a 
representative of an agency that is charged with protecting 
public health to urge a strong bipartisan support for H.R. 
4775. I think it is good for air quality, and it also 
streamlines the act.
    H.R. 4775, in my opinion, provides for much needed 
streamlining of the implementation of the Clean Air Act. It 
does not roll back anything that is already in the Clean Air 
Act in the form of protections for public health, safeguarding 
public health and it does nothing to roll back any of the 
progress that has been made and it will not impede or slow down 
our progress as we move forward to reduce air pollution and 
improve public health.
    I want to congratulate you and express my gratitude to you, 
to your committee, to the sponsors of the bill for taking 
reasonable action to provide much-needed and long overdue 
congressional guidance with respect to the implementation phase 
of the Clean Air Act.
    As you know, it has been more than 25 years since the act 
was last amended by the Congress. To date, as many have said, 
the act has served us well and we have made significant 
progress in reducing air pollution and improving quality of 
life all across the Nation.
    We have reached a point, however, in my opinion and many 
others in our region that have had decades of experience 
implementing the act, that we are reaching a point of 
diminishing return and many of the well-intentioned provisions 
in the act are leading to unintended consequences that are 
costly.
    In many cases, they are actually adverse to public health. 
I don't think anyone here believes that Congress meant to put 
something in the act that actually is detrimental to public 
health, and there are a number of provisions in the act now 
that if you fully implement them the way the courts have read 
them, the way EPA sees them, they are actually detrimental to 
public health and finally, consequences that set regions like 
ours up for failure with potentially devastating economic 
sanctions.
    And these consequences are going to be mostly felt in many 
of our environmental justice communities with a great deal of 
poverty and a lot of other disadvantages that they face 
already.
    I believe good governance and common sense dictates that 
after 25 years we reexamine our policies, and I am hoping that 
our decades of experience in our region can be helpful as your 
committee, as the Congress moves forward to chart the course 
for our future.
    In our region, we have imposed the toughest air regulations 
on all businesses and all agricultural activities.
    We have imposed the toughest regulations on cars, trucks, 
consumer products. We have imposed even tough regulations on 
what people can do inside their homes, as you mentioned, Mr. 
Chairman.
    We have left no stone unturned in reducing emissions from 
all sectors of our economy and from every source of air 
pollution in our region.
    We have reduced air pollution by over 80 percent. We have 
reduced population exposure to ozone by over 90 percent. 
Unfortunately, at this point, despite all that progress we are 
nowhere near meeting the latest standards.
    If you could just take a quick look at Figure 2 that I 
provided in my written testimony it basically breaks down the 
sources of air pollution from various sectors.
    Today, if we eliminate all businesses in San Joaquin 
Valley, small and large, we will not come anywhere near meeting 
the standard. If we eliminate all agriculture--and I have to 
tell you, seven of the top ag producing counties in the Nation 
are in our region--if we eliminated all agriculture in San 
Joaquin Valley we will not come close to meeting the standards.
    If we removed all passenger vehicles in our area--2.7 
vehicles--if we removed all of them we will not meet the 
standard. If we removed all the trucks that travel up and down 
the valley we will not come anywhere near meeting the standard.
    I don't think this is what the Congress envisioned when 
they passed the act when it was last amended and I will take a 
few more seconds, Mr. Chairman, if I could, to finish.
    I don't think the Congress envisioned a scenario like this 
where you reduce air pollution by 80 percent and you were at a 
point that you are not anywhere near meeting the standard.
    I believe, as I have detailed in our written testimony, 
H.R. 4775 puts in place a number of streamlining measures 
without rolling back any of the existing provisions and without 
impeding our progress and it will go a long way and finally 
bring in some order into the implementation phase of the Clean 
Air Act.
    [The prepared statement of Mr. Sadredin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Thank you very much.
    And our next witness is Mr. Ali Mirzakhalili, who is 
Director of the Division of Air Quality for the Delaware 
Department of Natural Resources & Environmental Control.
    Thank you very much for being with us and you're recognized 
for 5 minutes.

                 STATEMENT OF ALI MIRZAKHALILI

    Mr. Mirzakhalili. Thank you very much. Chairman Whitfield, 
Ranking Member Rush, and members of the subcommittee, my name 
is Ali Mirzakhalili and I serve as Delaware's Director of Air 
Quality. Thank you for the opportunity to testify on H.R. 4775, 
the Ozone Standards Implementation Act of 2016.
    Since the Clean Air Act was last amended over 25 years ago, 
it has prevented literally hundreds of thousands of premature 
deaths as well as averted millions of incidents of morbidity 
including, for example, heart disease, chronic bronchitis and 
asthma.
    The health benefits associated with this landmark 
legislation have far outweighed the costs of reducing pollution 
by more than 30 to 1.
    Moreover, we have acquired these health benefits over the 
same period as our Nation's gross domestic product has grown. 
It is fair to say that the Clean Air Act has not only been one 
of our Nation's most effective environmental statute, it will 
likely go down in history as one of the most effective domestic 
laws ever passed.
    Accordingly, it is imperative that consideration of any 
significant amendment to the act be deliberate and thoughtful 
and ensure that fundamental tenets of the legislation, which is 
protection of public health and welfare, remain intact.
    Unfortunately, after reviewing H.R. 4775, Delaware has 
concluded that it cannot support this bill. I believe the bill 
substantially weakens the existing Clean Air Act by delaying 
important deadlines and considerably altering the process of 
setting health-based national ambient air quality standards.
    One of my primary concerns with H.R. 4775 is Section 3(b), 
which would revise the criteria in the act for establishing 
health-based NAAQS by allowing the consideration of 
technological feasibility in determining the level of the 
standard.
    I believe this provision could unravel the entire framework 
of the Clean Air Act. Congress and the courts, including the 
United States Supreme Court, have been very clear over the past 
several decades on the issue of setting the NAAQS, requiring 
the EPA to set these standards solely on the basis of health so 
that communities will know whether or not the air they are 
breathing is safe.
    Costs and other factors such as technological feasibility 
have never been allowed to be considered in these critically 
important decisions. Once the health-based standards are set, 
the act appropriately allows cost and other factors including 
technological feasibilities to be considered as States develop 
implementation strategies to meet the standard.
    By removing this important firewall, separating the setting 
of the standards from their implementation, the public will 
never know what level of air quality is truly safe.
    Imagine an oncologist discovering through the best medical 
tests that her patient has cancer, but because the treatment is 
not feasible she tells the patient he simply has a bad case of 
flu.
    The diagnosis is not dependent on the feasibility of the 
treatment. I am also very troubled by Section 2 of the bill, 
which would delay deadlines for implementation of 2015 ozone 
standard by up to 8 years.
    Arbitrarily extending the compliance deadlines would leave 
the old, outdated and unprotective standard in effect, 
resulting each year in hundreds of premature deaths on top of 
many thousands of morbidity and related impacts.
    To make matters worse, Section 3(a) would permanently 
lengthen the NAAQS review cycle from 5 to 10 years, bar EPA 
from completing any review of those standards before October 26 
of 2025.
    I am concerned with Section 3(d) of H.R. 4775, which 
appears to reward the regulative community with no 
consideration of health of our citizens for EPA delays in 
publishing important guidelines.
    The bill would allow industries to meet preconstruction 
permit requirements based upon an outdated standard if EPA were 
unable or unwilling publish its rules and guidance at the 
time--at the same time it promulgates its health-based 
standard.
    One way for Congress to overcome these delays is to ensure 
that EPA has sufficient resources to do its job. The provisions 
of Section 3(f) and (g) of the bill are also troubling because 
they would weaken the progress requirement of the Clean Air Act 
by allowing States under the guise of economic feasibility and 
technological achievability to circumvent these important 
requirements.
    It will seriously interfere with Delaware's and other 
downwind States' ability to provide our citizens with clean 
air.
    In Delaware, we are meeting all of our deadlines and taking 
our responsibilities seriously. We fully expect the same from 
others.
    In conclusion, the proposed legislation would undercut 
requirements of the Clean Air Act that are crucial to obtaining 
healthy air quality as expeditiously as practicable.
    Further, the proposed amendments would wholly change the 
thrust of the Clean Air Act from expeditious protection of 
public health to one of delay.
    Delaware supports efficient and expeditious implementation 
of NAAQS. H.R. 4775 bill, however, would weaken and delay 
public health protection. My State, therefore, must oppose this 
bill.
    Thank you for the opportunity to testify and I am happy to 
answer any questions.
    [The prepared statement of Mr. Mirzakhalili follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Thank you very much.
    And our next witness is Mr. Misael Cabrera, who is the 
Director of the Arizona Department of Environmental Quality, 
and you're recognized for 5 minutes.

                  STATEMENT OF MISAEL CABRERA

    Mr.  Cabrera. Chairman Whitfield, Ranking Member Rush and 
members of the committee, my name is Misael Cabrera and I am 
the director of the Arizona Department of the Environmental 
Quality.
    I greatly appreciate the opportunity to share testimony 
today. As the lead State challenging the 2015 ozone standard in 
the court, Arizona does not support 70 parts per billion as the 
appropriate ozone standard.
    We believe that the new standard is simply not achievable 
in many areas of our State. Although the Clean Air Act has five 
mechanisms to bring nonattainment areas into compliance or 
provide relief, these mechanisms are inadequate for Arizona and 
likely other Western States.
    These mechanisms include improving air quality through 
State regulation, designating rural transport areas, 
designating interstate or international transport areas and 
demonstrating exceptional events.
    I will discuss each mechanisms and its shortcomings in the 
context of a rural county in Arizona. Yuma County is located in 
the southwest corner of Arizona bordered by both California and 
Mexico.
    The county contains a few small towns and the city of Yuma, 
which has an estimated population of about 100,000 and an 
unemployment rate of about 20 percent.
    Yuma is predominantly an agricultural community and despite 
its lack of urbanization or industrialization, Yuma County will 
be designated as nonattainment under the new ozone standard.
    As you may know, precursors for ozone include volatile 
organic compounds and oxides of nitrogen. According to EPA's 
2011 National Emissions Inventory, industrial sources account 
for only 0.2 percent of the total VOC emissions and 5.3 percent 
of NOx emissions within the county. All other sources are 
either naturally occurring or not regulated by the State.
    No matter how many local emissions controls are placed on 
Yuma County businesses, Yuma County will not achieve compliance 
under the new standard.
    In addition, Yuma County would not qualify for the rural 
transport mechanism because the Clean Air Act states that a 
rural area seeking relief cannot be adjacent to or include any 
part of a metropolitan statistical area, defined by the U.S. 
Census as an entire county comprising 50,000 people or more.
    The Cross-State Air Pollution Rule often mentioned as a 
relief mechanism is yet another option that does not apply to 
Yuma County. Although 20 percent of ozone concentrations in 
Yuma County emanate from California manmade sources, the rule 
only helps downwind nonattainment areas receive emissions 
reductions from upwind attainment areas.
    This approach will not work for Yuma County because 
California has already implemented the most stringent controls 
in the country, is still unable to achieve compliance with the 
standard and has no emissions reductions to contribute 
downwind.
    Further, the exceptional events rule is of dubious value to 
Yuma County, if not the whole country. Although Arizona has 
been a national leader in the development of exceptional event 
documentation or dust events, the process for documenting and 
receiving EPA approval of ozone-exceptional events has not been 
well explained, will almost certainly be resource intensive and 
is difficult to predict.
    The best case scenario for Yuma is that our agency can make 
an international transport demonstration, given that EPA's own 
modeling shows that international sources are responsible for 
68 percent of ozone emissions affecting Yuma on modeled 
exceedance days.
    Unfortunately, that demonstration is only valid after the 
area has been designated as nonattainment and has exceeded the 
3-year deadline.
    This means Yuma would still have to comply with higher 
nonattainment classification requirements--requirements that 
would limit economic growth in a high unemployment area in 
perpetuity as a consequence of emission sources that originate 
primarily outside of Arizona and/or outside of Arizona's 
jurisdiction and control.
    Yuma County is but one of many such counties in Arizona and 
the West. For all these reasons, Arizona is challenging the new 
ozone standard in court.
    We also request that consideration be given to interstate 
and international transport demonstrations before areas are 
classified as nonattainment.
    Thank you, and I am happy to answer any questions.
    [The prepared statement of Mr. Cabrera follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Well, thank you very much.
    And our last witness today is Mr. Alan Matheson, who is the 
executive director for the Utah Department of Environmental 
Quality.
    Thanks for being with us and you're recognized for 5 
minutes.

                   STATEMENT OF ALAN MATHESON

    Mr.  Matheson. Thanks, and I'll, Mr. Chairman, just note 
initially that Mr. Cabrera is credible, despite the fact that 
he has far too much hair for this panel.
    Mr. Chairman Whitfield, Ranking Member Rush, members of the 
committee, I am Alan Matheson, the executive director of the 
Utah Department of Environmental Quality.
    Improved air quality is a high priority for Utah. Under the 
direction of Governor Gary Herbert, we have taken aggressive 
action to clean our air--imposing stringent new control 
requirements, expanding public transportation, implementing 
travel-reduction strategies and a public education campaign and 
conducting research to understand Utah's unique atmospheric 
chemistry. The results have been meaningful.
    In the appropriate pursuit of cleaner air, we need to 
ensure that our regulatory system is rationally aligned with 
that goal. Today, I share Utah's concerns with the periodic 
review cycle of the National Ambient Air Quality Standards--or 
NAAQS--the implementation schedule for the ozone standard, and 
the challenges our State has in meeting the new 70 parts per 
billion threshold.
    In general, extending the 5-year NAAQS review cycle so that 
it better aligns with the prescribed NAAQS implementation time 
lines is appropriate. An area designated as moderate 
nonattainment for ozone has 8 years from the date the NAAQS is 
set to achieve attainment.
    At the very least, there should be 8 years between NAAQS 
reviews to accommodate this compliance schedule. Extending the 
review cycle to 10 years would more closely align it with the 
prescribed planning period of an area designated as serious 
nonattainment for ozone.
    Further, EPA has been unable to provide States with timely 
and necessary implementation guidance under the current 5-year 
NAAQS review cycle. The implementation rule for the 2008 ozone 
NAAQS was published in March 2015, only seven months before the 
ozone standard was lowered to 70 parts per billion in October.
    As another example, new PM 2.5 nonattainment areas were 
designated in 2009. State implementation plans for those areas 
were due to EPA December 2014, but EPA has yet to promulgate 
the guidance establishing what is required in those plans.
    EPA cannot even review for completeness the plans that they 
have received. Extending the time line for implementing the 
2015 ozone NAAQS will allow better coordination among States, 
tribes, and the Federal Government.
    One of the areas in Utah experiencing difficult challenges 
with ozone and expected to be classified as nonattainment is 
the energy-rich Uinta Basin. The unique chemistry underlying 
winter ozone formation differs from the typical summer urban 
chemistry anticipated by the Clean Air Act of 1990.
    In addition, this region has a complex mix of State, 
tribal, and EPA air jurisdictions. Utah has coordinated a 
significant multi-agency study into the causes of winter ozone 
and is working with EPA and the Ute Tribe in developing State, 
tribal, and Federal implementation plans for the area.
    These efforts take an extraordinary amount of time and an 
extension of the implementation period is needed. Under the 
Clean Air Act, another review of the ozone NAAQs will occur in 
2020. If EPA sets a new standard then, it will hamper the 
coordination efforts that are already underway.
    Background ozone levels present an additional challenge in 
meeting the new 70 part per billion standard. International 
transport can, at times, account for up to 85 percent of the 8-
hour ambient ozone concentration in some Western States. Many 
areas in the West have little chance of identifying sufficient 
controls to achieve attainment, leading to severe consequences.
    Utah recommends that EPA work with States to determine what 
portion of ozone pollution and its chemical precursors is 
coming from background ozone and to clarify how exceptional 
events and international transport will affect attainment 
designations and compliance.
    Making the right choices to improve air quality in ozone 
nonattainment areas will depend on how well we understand the 
science, and our understanding of science needs to improve. The 
tools available to States to account for nonanthropogenic ozone 
are administratively burdensome and subject to second guessing, 
often due to a lack of reliable supporting data.
    Effort spent analyzing uncontrollable pollution to satisfy 
EPA's administrative requirements is simply administrative 
overhead that does nothing to improve air quality or people's 
health.
    The Department of Environmental Quality's mission is to 
safeguard public health and the environment and our quality of 
life by protecting and enhancing the environment, and it is a 
mission that we take seriously.
    We must address the public health impacts of ozone with 
reasoned approaches. As we move forward with this more 
stringent ozone standard, EPA needs to have in place the 
necessary tools to allow States to succeed.
    Thank you very much.
    [The prepared statement of Mr. Matheson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Thank you, Mr. Matheson, and we appreciate 
the statements from all of you, and at this time I would like 
to recognize the gentleman from Texas, Mr. Olson, for 5 minutes 
of questions.
    Mr. Olson. I thank the Chair.
    My first questions are for Dr. Shaw. As you know, this 
bipartisan bill got Mr. Costa from California to sign up on it 
yesterday. It would require the EPA to review air quality 
standards every 10 years instead of every 5.
    It would also make sure that EPA actually puts out timely 
guidance on how to implement the rule when they do make a 
change. It ensures we avoid the mess of the last decade.
    Lower standards in 2008--rules to make those happen 2015. 
Seven months later new standards. That should never ever happen 
again.
    Do you think that these changes in this bill will help 
States clean up the air in a more straightforward way and more 
health benefits with this law--this new bill?
    Mr. Shaw. Thank you, Congressman.
    Yes, the reason that I am encouraged by the effort that is 
underway here is because I sincerely believe that it will 
enhance our ability to have more meaningful environmental 
regulations that do indeed help to protect the health of those 
individuals that we are sworn to help to protect.
    I believe that this planning time frame will help us to 
analyze and do the heavy lifting to understand better what is 
causing the respiratory health issues, to be able to develop 
plans to make sure those are being addressed and those 
regulations will indeed have a reasonable likelihood of 
yielding those environmental and health benefits.
    So I think that providing that time frame and requiring a 
more detailed analysis of the standard before it is lowered 
will be very helpful.
    Otherwise, we tend to have--find ourselves in a cycle where 
we lower the standard trying to achieve the health benefits 
that we failed to the last time we lowered the standard and I 
think there's some science that needs to be done to answer 
that.
    Mr. Olson. Is it true too that ozone concentrations are 
lower when--as medical reactions are higher in Texas so there's 
no coordination between more ozone and health, correct?
    Mr. Shaw. That's correct. In the State of Texas we have a 
higher asthma hospitalizations in the winter time during our 
low ozone concentrations and nationally as well we have seen 
significant reductions in ozone concentrations and yet the 
level of asthma continues to increase.
    Mr. Olson. Sounds like need more studies.
    As you know, last year EPA decided to pick a new standard 
of--well, they had a goal between 70 and 60 parts per billion. 
They chose 70. Their advisor said that rule net range would 
keep people healthy.
    Under our bipartisan bill, we call on EPA to give secondary 
consideration to whether a standard is achievable. It doesn't 
tell them to set an unhealthy standard but it keeps them 
available--it keeps that technology available, that edge, so 
they know they're protecting our air.
    Do you think this bill is a reasonable approach?
    Mr. Shaw. I do. I think that, you know, one of the other 
things that EPA has talked about is that even in absence of 
this standard being lowered that I believe that you talked 
about 85 percent of counties would achieve the standard by 
doing nothing.
    I think that there is an opportunity for us to provide 
reason to this and let the market and let some of these 
innovations take place and I think that this bill helps to 
ensure that we are investing our environmental efforts from the 
State from dollars and from what we are asking our regulated 
community to invest to actually lead those health benefits that 
we look at--that we are looking for.
    Mr. Olson. Thank you. And now Mr. Sadredin. Wow. Seventy 
parts per billion really hurts the San Joaquin Valley, huh?
    As was mentioned, one section of this bill deals with 
what's called exceptional events. That part of the law is 
designed to make sure that our communities aren't punished for 
pollution they can't control such as droughts or fires.
    But, as you know, EPA does not provide relief relating to 
certain events beyond an area's control. My question is, Can 
you explain why this exception is so important to this change 
for your county?
    Mr. Sadredin. Thank you, Congressman Olson.
    In 2012, San Joaquin Valley was on the verge of meeting the 
65 microgram per cubic meter standard for PM and then we had 
the drought that I am sure you heard about, have experienced it 
in other regions, where we had concentrations never seen before 
in terms of the magnitude of PM concentrations that we were 
monitoring throughout the valley.
    Unfortunately, the Clean Air Act as it is written right 
now, it says you cannot take into account a stagnation or 
precipitation.
    Now, this is another one of those well-intentioned 
provisions that is leading to unintended consequences. I think 
the Congress, when they put that in there, they meant, you 
know, you cannot come on a daily basis.
    Well, say, today is hot, today is stagnation. So this is an 
exceptional event on a daily basis. But when you have a 
situation like we experienced in San Joaquin Valley where we 
had a 100-year drought, conditions that had not been seen 
before for 100 years, and they have already gone away this year 
thanks to El Nino and almost a normal weather condition, the 
language in H.R. 4775 simply says that when you have 
extraordinary circumstances such as what we experienced in 
California you should not be held responsible, have the valley 
businesses, residences be penalized for something that we have 
zero control over.
    Mr. Olson. And so you're saying 100-year drought is 
exceptional. Is that right?
    Mr. Sadredin. That is all we are asking, yes.
    Mr. Olson. Wow. I yield back. Thank you.
    Mr. Whitfield. The gentleman yields back. At this time, I 
will recognize the gentleman from Illinois, Mr. Rush, for 5 
minutes.
    Mr. Rush. Well, thank you, Mr. Chairman.
    Mr. Mirzakhalili, as I referred to in my opening statement, 
the ozone standards have not been updated since 2008. H.R. 4775 
would further delay any new standards from being implemented 
for up to another 8 years.
    Are there any health implications that would be impacted if 
this bill were to become law and we waited for a period of 
almost 16 years before updating these standards?
    Mr. Mirzakhalili. Thank you, Mr. Rush. Obviously, the 
sequence of events that takes place by setting the standard--
when the standard is set, the designations take place, the 
States begin taking action to reduce their emissions.
    We depend on our upwind State emissions reductions to help 
us achieve attainment. If they are not designated, if they are 
not implementing measures to reach attainment, we are not going 
to--as a downwind State, we are not going to see the benefit.
    Moreover, the standard--we are telling the people probably 
an untruth saying that standard--they are being protected by 
the ozone standards. We issue forecasts. We issue air quality 
alerts.
    We issue advisories based on the standard. If the standard 
is not protective, the forecast obligation is not going to tell 
people the whole story.
    Mr. Rush. What are the implications, Mr. Mirzakhalili--what 
would the implications be if we were to extend the renew period 
for all air pollutant standards from every 5 years to 10 years?
    For instance, there is a concern that new developments in 
scientific research in regards to health impacts may occur more 
frequently than every decade.
    Also, just because the EPA is required to review the data 
every 5 years does not mean that the agency must automatically 
update the standards every 5 years.
    Do you have any comments on----
    Mr. Mirzakhalili. Absolutely. The 5-year review--we need to 
follow science. The decision regarding the standards should be 
science-driven.
    As everybody here on the panel has talked about, we need 
additional information. We need to do research and we need to 
be informed by that--by the research.
    We can't just arbitrarily prohibit and prevent EPA to 
lengthen the time that they go back and revisit the standard to 
some period of time because it is not convenient.
    I think 5 years has been a good timer and tied with--if we 
want an alignment with implementation your marginal areas have 
to come in with 3 years of the standard.
    So if you are going to--one could argue that there should 
be a 3-year review of the standard as opposed to a 5-year. As 
the new science becomes available, EPA doesn't have to, and 
they have a number of occasions, not changed the standard.
    They have reviewed it, said science doesn't indicate that 
we need to change the standards and they have moved on. That's 
the case with carbon monoxide. That is the case with the last 
time there was a motion for reconsideration of the 75 standard.
    We are not happy with 70 ppb. I don't think it was--you 
know, I would have been happier with a lower standard. We think 
that some of the science indicated that 65 would have been a 
more protective standard.
    However, EPA followed the science advisory committee's 
recommendation and adopted that. And so we are trying to 
implement that. They should not be barred from implementation. 
There should not be a provision that would delay the review of 
available scientific data that will come before it.
    Mr. Rush. H.R. 4775 would also change the reporting 
requirements for States by allowing them to claim, quote, 
exceptional events, end of quote.
    Can you discuss the practical implications of changing air 
quality monitoring protocols in ways that could lead to under 
reporting of poor air quality conditions and how this might 
impact mostly health and environmental conditions for an 
affected community?
    Mr. Mirzakhalili. I just go back to what triggered the--
prompted the Clean Air Act and us, the Congress, acting on 
adopting clean air measures. The northern Pennsylvania event 
was an exceptional event. It killed people. We had a bad 
inversion that caused a high air quality event and a number of 
people died as a result of air pollution.
    Just because meteorology is adverse it doesn't mean air 
pollution doesn't occur and you should be dismissed. The 
language that is being proposed here it opens the door that we 
say if there is a hot day we don't--it doesn't count. An 
inversion doesn't count.
    So we are reduced to managing air quality on good days and 
I don't think that's the way you intend us to do.
    Mr. Rush. Thank you. I yield back.
    Mr. Whitfield. Gentleman's time has expired. At this time I 
will recognize the gentleman from Texas, Mr. Barton, for 5 
minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    I am going to ask most of my questions to Chairman Shaw, 
but if anybody wants to answer them, they can. I just know him 
a little bit better.
    What was the original ozone standard set back in 1971?
    Mr. Shaw. The standard has, obviously, changed over time 
and we had a 1-hour standard and the number was 120 parts per 
billion, I believe, was the standard.
    Mr. Barton. It was over 100.
    Mr. Shaw. Yes. Yes.
    Mr. Barton. But it was set in a different way on a 1-hour.
    Mr. Shaw. Correct.
    Mr. Barton. We've changed it to an 8-hour.
    Mr. Shaw. That is correct.
    Mr. Barton. And has consistently gone lower every time it's 
been set. Isn't that correct?
    Mr. Shaw. That's correct.
    Mr. Barton. How low can it go? I mean, why not just put 
into law every 5 years we are going to reduce it 5 parts per 
billion and be done with all this? Because that is what 
happens, basically.
    Mr. Shaw. It is certainly part of where I am encouraged by 
a longer time period between the review. But that is most 
effective if that is a more thorough review because as I 
alluded to earlier it is my perception that we are in a cycle 
to where we are--the process that is being used by EPA to 
determine whether to lower the standard is flawed and this is 
certainly characterized and captured in our comments we 
submitted.
    But we are looking at epidemiological studies that show a 
correlation and therefore they are assuming that there must be 
a causal relationship.
    And yet, in order to get clinical studies to show an impact 
on the ability of people to bring air in and out of their lungs 
they had to subject folks to 6--over 6 and a half hours per day 
of moderate to extreme exercise while being exposed to levels 
we are talking about just to get a measurable degradation in 
lung function.
    And by the way, those levels were reversible. Those weren't 
permanent. And so in order to get any response they had to have 
people exercise it in a way that--I won't speak for you but 
certainly I can't do on a regular basis and it is--while we 
agree that EPA used them as a surrogate for the sensitive 
populations, it is unreasonable to expect people to be exposed 
to that.
    And the key point I am making, Congressman, is that EPA is 
continuing to lower the standard but we are continuing to get 
the same result. If you lower the standard over and over again 
but you're not providing those health benefits then one would 
question maybe we are missing something.
    Mr. Barton. Well, now, the standard is parts per billion. 
Isn't that right?
    Mr. Shaw. That is correct.
    Mr. Barton. And we are going from 75 parts per billion to 
70. So we are changing it five parts per billion. Can I tell 
the difference? If I breathe air right now, can I tell the 
difference between 70 parts per billion and 75 parts per 
billion?
    Mr. Shaw. I would argue that in order for EPA to get a 
measurable difference that you would have to follow that 
protocol and exercise rigorously for 6 and a half hours each 
day while you were being exposed to that in order to 
potentially, and not all parties would show a measurement. So, 
unlikely that you would experience that.
    Mr. Barton. I tried to exercise for 6 and a half hours, 
that would kill me. That would be a measurable impact on my 
health.
    Mr. Shaw. I am with you, Congressman.
    Mr. Barton. What is the sensitivity of the best air quality 
monitors--in other words, the variance--they measure parts per 
billion plus or minus--it used to be about 10 parts per 
billion, but it may be better now.
    Mr. Shaw. We are better than that now, and certainly we can 
measure to the parts per billion and that is getting--you know, 
the science an ability to monitor is improving significantly.
    Unfortunately, that doesn't necessarily--because you can 
measure it to a finer detail it doesn't necessarily mean that 
you're--that you are better able to understand what those 
implications are.
    We can measure it very accurately. But the bigger errors 
aren't in the measuring the concentration at the monitor. The 
bigger errors are the fact that folks that we are comparing 
them to that are hospitalized and/or unfortunately, pass away 
we are tying them to a monitor that they may never have been 
around.
    And in fact, in all likelihood someone who is in a hospital 
or, unfortunately, passing away likely didn't spend their final 
days exercising 6 and a half hours a day.
    In fact, they probably spent most of their time indoors, 
which we, as a general population, spend about 90 percent of 
our time indoors where ozone levels are about 30 percent, I 
believe, of ambient and we are exposed to much other pollutants 
in the indoor environment than we see in the ambient 
environment.
    And so in all likelihood, any environmental input into that 
person's hospitalization and mortality were effectively 
something besides ozone and I think that is where we need EPA 
to assess and help us to come up with ----
    Mr. Barton. Let me ask Mr. Cabrera a question.
    What do you do in these rural counties like you mentioned 
where the natural occurring ozone is probably higher than the 
standard? You just--there is nothing you can do. What--I mean--
--
    Mr. Cabrera. Congressman Barton, that is exactly why we are 
challenging the standard in court.
    There are many areas that would be forced to put 
requirements on industry for air pollution that they did not 
create and that the State cannot regulate, and that puts rural 
counties in a very odd position.
    We have looked at this very, very hard. Our stance as an 
agency is typically to cooperate with EPA whenever we can and 
on this particular issue we have looked at all of the 
mechanisms for relief that EPA provides and none of them work 
well for Arizona.
    And so rather than holding counties accountable for air 
pollution that they did not create, we decided to challenge the 
standard in court.
    Mr. Barton. Thank you.
    Mr. Whitfield. The gentleman's time has expired.
    At this time, I will recognize the gentleman from New 
Jersey, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask my questions of Mr.--is it pronounced 
Mirzakhalili? OK.
    I see you share many of my concerns about this bill. In my 
opinion, H.R. 4775 is a major rollback of valuable Clean Air 
Act protections and will give any area that has air quality 
problems numerous new avenues to avoid cleaning up the air.
    So, first, I would like to ask some questions about the air 
quality monitoring provision. Exceptional events--large 
wildfires, for example--are accounted for now in air 
monitoring. I mean, that is true. Do you want to just briefly 
explain that?
    Mr. Mirzakhalili. Certainly. Thank you, Congressman.
    Right now, the policy--as exceptional events come into play 
when we look at the air quality and see what--whether or not 
the violator attained the standard or met the standard and that 
is the communication that we make back to our community.
    During certain events--you know, Canadian wildfires, for 
instance, contributed--caused a problem for certain areas in 
our region--we were able to go back, make the case those are 
exceptional events and eliminate those--reading those air 
quality data points from our overall assessment of air quality 
and attainment/nonattainment.
    So to go back and say well, and that is very limited--EPA 
works on it. They have--they're working on the guidance. There 
was just recently a meeting where they brought up and trying to 
address Mr. Sadredin's and others' issues regarding, you know, 
what should or should not be exceptional events.
    But I think what this proposed language does, it creates a 
big gaping road for inversions, fires, having hot days and 
those are not supposed to be considered exceptional events. We 
are supposed to protect the public from----
    Mr. Pallone. So then if now you expand this definition, you 
know, this--these exemptions, what are some of the real world 
implications for such a policy change?
    Mr. Mirzakhalili. Well, ozone is formed during the hot days 
and require hot days to create ozone. It's a secondary 
pollutant. You need VOC and NOx in the presence of sunlight and 
hot temperatures.
    So if you take out days we eliminate hot ozone days. So we 
can--we can declare victory that way and before that we have 
met the standard whereas we are not meeting the standard.
    Mr. Pallone. So for downwind States like yours and mine 
also, by the way, I am concerned that this change, you know, 
makes the air quality problems from transport a lot worse.
    I mean, is it possible that downwind States could receive 
additional air pollution? I mean, they are likely going to 
receive a lot more air pollution.
    Mr. Mirzakhalili. Absolutely. Like I mentioned, if the 
trigger for controls is by designation on air quality, 
nonattainment areas usually have to implement more 
requirements, and to the extent that they are not part of the 
planning, if they manage--if the open area manages to exclude 
their poor air quality that is based on exceptional events they 
will not be required to implement the reduction strategies that 
would then directly benefit the downwind areas such as ours and 
your State, obviously.
    Mr. Pallone. All right. So as I understand it, the 
monitoring data is also used to report the daily air quality 
index, which gives people warnings when the air pollution is at 
unsafe levels.
    So how would expanding what can be considered an 
exceptional event impact those alerts to the public? Would it 
lead to fewer warnings or would the public wonder why the 
numbers of warnings of bad air quality days are increasing 
while their area was declaring that they were meeting the air 
quality standards? I mean----
    Mr. Mirzakhalili. It certainly would create a confusion and 
mixed messages to the public. You know, we provide access to 
air quality data to the public.
    Our monitoring stations are--you know, you can go online to 
our Web site and get near real-time air quality data and they 
will see it is measuring, you know, above the standard and yet 
we are saying well, that this doesn't count.
    Mr. Pallone. Well, is there any justification for this 
change other than making bad air quality look good to avoid 
controlling air pollution or what is the justification other 
than that?
    Mr. Mirzakhalili. That is what I get, and that is why we 
are not supporting it. I believe there are instances that are 
truly exceptional events that EPA already considers.
    But to open it up to the extent that is being proposed is 
not warranted.
    Mr. Pallone. All right. Well, I just--I want to thank you, 
because as I see it this Section 3(h) would create a loophole 
that would allow localities to disregard dangerous air 
pollution and, basically, the bill requires the EPA and the 
States to pretend that real harmful air pollution doesn't exist 
and isn't hurting our kids when in fact it may very well be.
    So thank you very much. Thank you, Mr. Chairman.
    Mr. Whitfield. Chair recognizes the gentleman from 
Illinois, Mr. Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you. This has been a great hearing. I am 
sorry, I just had to step out.
    So I want to start with Mr. Mirzakhalili. I am sorry if I 
butcher it. I am Shimkus. I get it butchered all the time, too.
    The--you don't question anybody on the panel with you and 
their concern about air quality, do you? I mean, all your 
colleagues there, in essence, you don't--you don't question 
that they are doing their best for the air quality of the areas 
that they represent?
    Mr. Mirzakhalili. Absolutely not. I copy their programs 
quite often. I go through----
    Mr. Shimkus. Let me go on because--yes, I mean, this is 
great testimony that we have heard from some of your 
colleagues, and Mr. Sadredin, I think we would pull up--I would 
encourage people to look at his testimony and look at the two 
charts he refers to in his testimony.
    I don't know if you can pull it up. We are having trouble, 
and so that is why I was bouncing back and forth.
    The reality is in San Joaquin Valley the success of what 
you have been doing is undeniable, and you are coming before 
us.
    Then you go to chart two, then you are coming to us and it 
says, ``Even if I stop all this activity, I can't meet it.'' Is 
that how I observe your opening statement and your testimony?
    Mr. Sadredin. Yes. Thank you, Congressman.
    As we speak today, the San Joaquin Valley is on the verge 
of having 10 active State implementation plans for 10 different 
standards for ozone and particulate matter.
    There is nothing in this bill that would take this 
impossible mandate that is before us as we speak that by next 
August our region is required to put a new State implementation 
plan together to reduce emissions down to zero from all these 
sources, very near zero, and even then it is questionable 
whether we meet the standard because the background 
concentration that we have.
    So when people talk about this bill rolling back or holding 
back requirements, there is nothing like that. Just meeting the 
current standards we have to go to the Nth degree of throwing 
more than the kitchen sink because we've already thrown that 
in.
    Mr. Shimkus. And let me go to Mr. Cabrera because I saw you 
shaking your head when the ranking member was talking.
    I mean, you are in the same position, in essence. So what 
do you do?
    Mr. Cabrera. There is very little that we can do. And so to 
answer the question about the exceptional events, the Clean Air 
Act and the rule will regulate an area that exceeds the 
standard on four days only the same as an area that exceeds the 
standard every day.
    So an area that exceeds the standards on four days of the 
year versus an area that exceeds that standard every single day 
of the year get treated the same and that is the reason why you 
need exceptional events.
    Mr. Shimkus. Yes, and Congressman Olson showed me a picture 
of an exceptional event in Texas and actually told me that 
there were 10 exceptional events that he could speak to.
    How many of those got kind of a waiver or whatever the EPA 
does to say OK, we will take that into consideration, Dr. Shaw?
    Mr. Shaw. I don't have that number but I will speak to it 
general and it is challenging and it is uncertain whether 
you're going to have success.
    It takes an awful lot of personnel input to get there and 
oftentimes before you get there the damage is done from that.
    And so I can't speak, unfortunately, to the number of those 
that were successful. But in general those are some of the 
challenges with those exceptional events.
    Mr. Shimkus. So Mr. Mirzakhalili, part of the--why I 
focused on you at first because in your opening statement you 
made a comment--this is why we find this debate troubling--that 
even though there is not technologically a feasible way to get 
to a level, you are testifying that we should meet it anyway.
    Mr. Mirzakhalili. What I said was----
    Mr. Shimkus. That is what you said in your opening 
statement.
    Mr. Mirzakhalili. I said that in setting the health--air 
quality standard should be independent of technological 
feasibility because so the science indicates----
    Mr. Shimkus. Yes, so even though there is not technology to 
get there, they need to have that as a standard. That is why we 
have--let me go real quick. I am almost done with--I only have 
30 seconds, and I apologize.
    So the other issue that I have dealt with numerous times is 
the public domain doesn't understand the multiple different 
environmental rules and regs that are--that are imposed upon 
air quality folks in this country.
    So here we are talking about ozone, PM. So the public out 
there, the C-SPAN viewers are saying, ``What's the deal? It's 
one air provision.''
    Well, we know it's not, right? You guys deal with it, and I 
always bring it up and I am going to do it again. You are 
dealing with MACT. It was mentioned in some opening. We got 
mercury air toxics.
    We have got air quality standards for particulate matter. 
We have got cooling water intake rule. We have coal ash startup 
shutdown malfunctions, Clean Power Plan, ozone rule.
    This is just one of a multitude of a cavalcade of rules and 
regulations that are imposed upon people who are trying to 
protect the air quality for their citizens and they--you all 
need help and you all need a delay in implementing this and 
that is why this is--this is a good bill and I appreciate my 
colleague for bringing it forward and I yield back my time.
    Mr. Whitfield. At this time, the Chair recognizes the 
gentleman from California, Mr. McNerney, for 5 minutes.
    Mr. McNerney. Well, I thank the chair. You know, the San 
Joaquin Air Pollution Control District has done an excellent 
job over the years and I think should be a model for some of 
the districts across the country.
    For example, the last couple years have been some of the 
cleanest on record. Would you discuss some of the 
accomplishments of the Air District and how you have attained 
those accomplishments?
    Mr. Sadredin. Yes. Thank you, Congressman McNerney.
    We have been doing this, as you know, for over three 
decades now in San Joaquin Valley.
    But, unfortunately, as we speak today, the congressman 
mentioned, you know, when was the first ozone standard 
published--1979, when our ozone standard--we made significant 
reductions in emissions and we are just barely in the process 
of meeting that standard because the way the Clean Air Act is 
constructed if you have 1 hour of exceedance----
    Mr. McNerney. But, I mean, that wasn't my question. How did 
you meet those?
    Mr. Sadredin. Well, we have imposed the toughest 
regulations on valley businesses from small Ma and Pa 
operations, service stations, paint shops, all the way to our 
largest power plant refinery that we have.
    Mr. McNerney. Have you--have you been able to use 
technology--new technology? Has there been incentive for you to 
use new technology that you've implemented?
    Mr. Sadredin. Yes. We support regulations or mandates that 
force technology. But we have to take a close look at, you 
know, where we are at this juncture in our history. This is not 
25 years ago when cars did not have catalytic converters and 
there was a lot of low-hanging fruit.
    There is nothing in this bill, in my opinion, that would 
hold us back in continuing to push technology because of the 
current standards. There is nothing in this bill that would 
make us go back and have any of these tough regulations that we 
have imposed to roll them back.
    Technology has been the savior. As we have moved forward, 
more technology is available. But today, unfortunately, even if 
money were not object, technology does not exist today even on 
the drawing board to get to some of the reductions that we 
need.
    And as I said, even if we eliminated everything, just say 
we don't have technology, let's shut down agriculture--let us 
shut down all businesses, it will be difficult to meet the 
standard.
    Mr. McNerney. You have mentioned that the new standards 
will be detrimental to public health. Could you explain that?
    Mr. Sadredin. I said that there are a number of provisions 
in the Clean Air Act right now that are detrimental to public 
health and a couple of them are being addressed by this bill.
    The obvious one, which is a classic case of well-
intentioned provisions that has led to unintended consequences 
is a requirement that extreme ozone nonattainment areas such as 
ours have to have contingency measures.
    Of course, contingencies make sense. Everybody said, 
Whatever you do let's have a contingency measure in place. But 
an extreme nonattainment area by definition is an area that has 
to throw everything in the mix in their plan.
    There is not an A list of measures that we say oh, let's 
just do those and hold back. Some of those measures were 
contingency ARB's policy and the way the rule is written will 
force areas like ours to not put in place all the technology 
that is available.
    Hold some of it back for contingencies later. To me, that 
is detrimental to public health.
    The other thing that is detrimental to public health the 
way the Clean Air Act is constructed right now it does not 
distinguish the fact that various pollutants have different 
impact on public health.
    Not all PM 2.5, for instance, has the same impact. Some of 
it is ammonium nitrate, which might be, you know, respiratory 
irritant, whereas you have diesel carcinogens which cause 
cancer, toxic.
    In the Clean Air Act, it says you treat them all the same 
and waste a lot of resources and efforts on reducing pollutants 
that have much less benefit to public health versus what we 
could do with others.
    And then, finally, the whole bureaucracy of having 10 
plans--it takes a lot of resources that are diverted from being 
able to do things to actually reduce air quality and improve 
public health. To me, those provisions are detrimental to 
public health.
    Mr. McNerney. Thank you. Mr. Mirzakhalili, does Delaware 
have any regions that are having difficulty meeting standards 
because of noncontrollable sources?
    Mr. Mirzakhalili. Certainly. Our struggle with ozone are--
is mainly I attribute to emissions that are outside of our 
jurisdiction and are transport related.
    Mr. McNerney. So have you been able to work with the EPA to 
develop the flexibility you need to deal with that?
    Mr. Mirzakhalili. What we have--we have been struggling 
with EPA trying to get them to actually expand in nonattainment 
areas. That was a case that we delegated with EPA, saying that 
more areas outside of Delaware should be designated because 
they contribute to our nonattainment.
    As nonattainment be subject to the requirements of--that we 
are subject to to get--put the emissions reductions in place in 
order for us to attain.
    We are not successful in that effort but by delaying the 
standards, by not implementing the reductions Mr. Sadredin's 
problems aren't going to go away and if the emissions 
reductions don't take place in upwind areas our problems aren't 
going to go away. In order to solve air pollution we need to 
reduce air pollution.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Whitfield. The Chair will recognize the gentleman from 
Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Thank you, Mr. Chairman, and very good hearing 
today and thanks to our panelists for being here today.
    If I could start, Mr. Sadredin, if you would like to 
respond if you can remember exactly what Mr. Mirzakhalili 
comments on--exceptional events. Could you comment maybe on 
what he had commented on?
    Mr. Sadredin. Yes. There are a couple of areas that I don't 
agree with, let's say.
    First, Congress, even 25, 40 years ago when the act was 
passed recognized the fact that exceptional event provisions 
make sense because there are times when everything is 
overwhelmed by things you have no control over and regions 
should not be penalized.
    The misunderstanding that I see in some of the discussions 
there is that somehow what is in this bill or allowing a more 
reasonable approach to an exceptional event is being 
characterized as misleading the public or not letting the 
public know what's going on.
    There is nothing with exceptional events that says you do 
not measure air quality and do not report to the public what 
the air quality actually is, and if you have programs like we 
do, working with the school districts on bad air quality--to 
stay indoor--whether that air quality is bad because of an 
exceptional event or a source of air pollution, those things 
will stay in effect and the public is fully aware of those.
    The only thing that an exceptional event provision that 
says it will keep the area being penalized from having had this 
violation that they have no control over--and, as you know, 
there a number of penalties, sanctions in the Clean Air Act 
when you don't meet the standards--as was mentioned, if you 
have one day of exceedance in the region you still have all the 
requirements applying to you.
    It is just when you have an exceptional event we say don't 
hold that against us for the sanctions and other obligations 
that come into play.
    There is nothing in this bill that would take that away in 
terms of communicating to the public what true air quality is 
and all the protections that you need to put in place with 
respect to that.
    Mr. Latta. Thank you very much.
    If I could turn to Mr. Matheson, and this has come up 
before. But when you see that the National Park Service 
released data that at many national parks--this is the Joshua 
Tree National Park, Sequoia, Kings Canyon National Parks, even 
Yosemite--had ozone exceedances in 2015 you note in your 
written testimony that many rural Western national parks, the 
canyon lands in Utah are located far from any emission sources 
yet routinely are above the new ozone standard levels of 70 
parts per billion.
    And so I guess my question is are you concerned that from 
many parts of the western United States there may be few if any 
options I know we just heard a little bit about, but what 
options are there then to complying with this--these 
regulations? How do you do it?
    Mr. Matheson. It is a significant challenge, and I know the 
Western States Air Resources Council, which is the 15 States in 
the West and their air directors, have been looking at this 
issue and they found that there has been some recent research 
suggesting that there are 12 counties in six States in the 
inter-mountain West where the design values exceed the 70 parts 
per billion but the human in-State contribution to that 
pollution is 10 percent or less.
    Mr. Latta. Let me interrupt for one second because, again, 
I am from Ohio. We have 88 counties. My home county is one of 
the top 10 counties in size. It's 619 square miles.
    I noticed Yuma County--I did a quick check--is 5,519 square 
miles. You know, we are looking at size differences and you are 
lumping everybody together as a county. How do you adjust for 
that and how do you account for it? How are you going----
    Mr. Matheson. And I will give you another example in Utah. 
San Juan County, where Canyonland National Park is far away 
from any urban areas, it's about the size of New Jersey, has a 
population under 16,000. The industrial emissions for NOx are 
400 tons a year total. For VOC it is 100 tons a year total.
    So if you look at the standards that are applied based on 
ozone formation typically in the East and in urban areas, the 
requirements are looking at fuel reformulation, looking at 
emission testing for cars, control requirements on business, 
traffic controls, et cetera. Those provisions don't apply and 
don't work in a county like San Joaquin County that does at 
times exceed the 70 parts per billion.
    Now, we are committed to clean air and we are looking at 
every option available. But at times those options just aren't 
available. We have seen many situations in the southwestern 
part of the State where we measure the air mass coming into the 
State, and it is above the standard.
    It goes through the metropolitan area of St. George and 
measured on the other side. The ozone is just the same. And in 
fact, if you measure at night, ozone goes down because of NOx 
scavenging.
    It's a--you have a chemical reaction that takes some of the 
ozone out of the air. So, again, we are finding it hard to 
justify how in the East you reduce NOx and VOCs and ozone has 
gone down. In many parts of the West, we have dramatically 
reduced NOx and VOCs and over the last 20 years ozone has 
stayed relatively constant.
    Mr. Latta. Thank you very much. My time has expired.
    Mr. Whitfield. At this time, the Chair recognizes the 
gentleman from New York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair, and certainly having 
worked, before entering Congress, on a number of environmental 
and energy concepts, it is nice to know that we can protect the 
environment and public health and grow the economy and that 
they are not mutually exclusive.
    In fact, they do indeed support each other, and I know that 
Representative Rush had quizzed some of you about the 5-year 
review cycle, the rationale there, and citing some of the 
experiences.
    I would like to dig a little deeper into that and, if I 
could, as you, Mr. Mirzakhalili, the--about some of the 5-year 
cycle.
    Were there significant amounts of new research and 
scientific knowledge that informed the recent revision to this 
standard?
    Mr. Mirzakhalili. I am sorry. Could you repeat that?
    Mr. Tonko. Yes. Are there significant amounts of new 
research and scientific knowledge that informed the recent 
revision to this standard?
    Mr. Mirzakhalili. Absolutely. There was a wealth of 
additional studies. I don't recall the exact number of 
additional studies that were a part of the record of the 
decision.
    But CASAC considered all of those and there are--we are 
getting at additional studies coming out every day. Right now, 
a new study that came out tying air pollution to preterm, for 
instance.
    It is--need to be considered. They need to be in front of 
the scientific community and inform EPA of our policy 
decisions.
    Mr. Tonko. So if we create this construct of a 5-year 
window or have, new and significant research can become 
available. Is it fair to say that delay of this proposal--of 
the proposed--of this proposed legislation would hinder the 
agency's ability to ensure the latest science being 
incorporated into EPA's decisionmaking?
    Mr. Mirzakhalili. It would certainly bar them from using it 
and will not--as is the agency is--can review it in a timely 
manner and make revisions as necessary. What lengthening the 
cycle would do is just set it aside until the time comes up.
    Mr. Tonko. And under the current law, if EPA finds that a 
change is not warranted in that 5-year cycle does it have to 
revise the standard?
    Mr. Mirzakhalili. No, they do not.
    Mr. Tonko. Is it correct that the recently revised standard 
is consistent with the recommendations of the Clean Air 
Scientific Advisory Committee and the latest science?
    Mr. Mirzakhalili. It is.
    Mr. Tonko. In fact, that committee, I concluded, I believe, 
that the latest science supports a standard within a range of 
70 parts per billion down to 60 parts per billion. So EPA's 
standard is on the high end of that range.
    The purpose of these standards is to establish a level of 
air quality that adequately protects public health based on the 
latest scientific knowledge.
    The increase to a 10-year review cycle would undermine that 
effort. The current 5-year cycle provides a reasonable amount 
of time for the development of new research.
    So the intent of this bill, I believe, is to obstruct EPA 
from performing its duty to promote public health by increasing 
the length of its review cycles. But I see the possibility for 
that to backfire.
    Apparently, EPA has discretion to not change standards and 
in its last revision it decided on the high end of the range 
suggested by the independent Clean Air Scientific Advisory 
Committee.
    And after a 10-year span existing standards will no longer 
be based on the latest scientific evidence and proposed 
regulations may have to be even more ambitious to meet future 
long-term public health needs.
    Now, you may be changing the standard less often but the 
changes may have to be much more drastic. So do you think that 
may be a possibility, what I just said?
    Mr. Mirzakhalili. I completely agree with your assessment.
    Mr. Tonko. I think that, you know, what we have here is an 
opportunity for us to move forward with science and technology 
to assist us in strengthening the outcomes and would strongly 
encourage the community to--your given technical community to 
encourage us to do the most effective outcome here.
    Mr. Mirzakhalili. I completely agree. I think it is--the 
large number of health care community out there that also 
agrees with you.
    Mr. Tonko. And erring with that great growing sentiment I 
think is the way that will allow us to achieve the best 
results. So with that, Mr. Chair, I yield back and thank you.
    Mr. Whitfield. Gentleman yields back. At this time, the 
Chair recognizes the gentleman from West Virginia, Mr. 
McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    Let me try to understand. I want to cut to the chase a 
little bit on this. I think the whole rationale for lowering 
from 75 to 70, as I recall, with McCarthy and others who have 
come in and testified, was it was to improve our health, 
particularly address asthma.
    Is that a fair statement, that that is generally why they 
lowered it from 75 to 70? I am hearing that from testimony.
    But yet, we have--time and time again others have come in 
here and said there is not relationship between ozone and 
asthma.
    We have--Utah State came out with a report on that. A Los 
Angeles study came out in 2011 on it. Johns Hopkins just came 
out a couple years ago, said there was no connection. So I am 
troubled with the rationale of lowering it from 75 to 70 when 
there is no connection, especially when we hit rural areas or 
States with nonattainment zones and the impact of it.
    I don't think--and I refer to a lot of Mildred Schmidt--I 
don't think the lady on the street understands what has just 
happened when we've lowered this.
    So for Mildred Schmidt--in West Virginia I have got the 
most--these are the absolute latest, just printed today, that 
our capital this year hit 72. Another city was 74. My city was 
72. Another community was 77.
    Morgantown, home of the Mountaineers, 74. I am just 
troubled with where we are going with this. I guess it is 
fundamentally goes to that--just because Government can change 
or modify a regulation doesn't mean that it should. It has the 
power to do that but why are we doing this.
    So let me ask the question. If you are in a nonattainment 
county, what are you supposed to do? It is my understanding we 
can't get air permits--or excuse me, you won't be able to get a 
construction permit.
    In West Virginia, in these towns I just referred we are the 
51st unemployment rate in the Nation. We are the eighth most 
impacted by regulations in the country and yet we are just now 
going to put another layer on it that I am not sure is going to 
improve public health.
    Mr. Sadredin. I believe you bring an important issue to the 
light here that is really at the heart of this legislation that 
is before you which really gets to the implementation phase of 
the Clean Air Act.
    People could argue where the standards should be set or 
where it shouldn't be. There could be--there are various 
opinions on that. But there is a misnomer out there that people 
equate cleanup in the air and improved public health by just 
setting a new standard.
    But the realities that we face today after 25 years, after 
40 years is that we are--the best way you can describe it--the 
process that we face right now when standards change it's the 
chaos that leads to a lot of litigation, a lot of delay and no 
cleanup in the air.
    And then they, I think, the more--what this bill 
essentially does it doesn't say ultimately the 70, if that's 
the best standard, will not take effect. It just says let's 
bring some order to the process.
    We have, in our case, 10 other State implementation plans 
already for the existing plans that we have to deal with. Let's 
deal with those and then in 8 years there's no rollback, no 
change in the progress that we have made. Let's bring some 
order into the implementation phase of it.
    Mr. McKinley. But, Dr. Shaw, if I could--you touched on 
something that has been dear to my heart because I think many 
people--I was a professional engineer before I came here, one 
of just two in Congress and we dealt with a lot of indoor air 
quality--and so the fact that you mentioned the 90 percent I am 
with you.
    That is exactly what it is. We focus a lot on indoor air 
quality. Are we chasing the wrong rabbit here? Should we really 
be looking at indoor air quality versus the exterior?
    Because if we are spending 90 percent of the time indoors, 
where should we--so I would like to hear from you in the time 
remaining. Which should we be addressing? Which rabbit should 
we be chasing?
    Mr. Shaw. Thank you, Congressman. You used one of my 
favorite adages and that is that we are chasing the wrong 
rabbit and that is the reason that I am so motivated and why my 
staff has dedicated significant resources to trying to better 
understand both the ozone standard as well as helping to try to 
provide some input into a better process.
    Because what we do know is, as you point out, there's 
dubious connections between the respiratory health issues that 
we are trying to address at this point and the ozone standard.
    The justification for lowering the ozone standard to try to 
improve asthma is primarily associated with epidemiological 
studies, looking at the correlation between ozone and people's 
hospitalization associated with that.
    Those don't hold up uniformly across the country and 
certainly I think we are missing the opportunity to chase the 
right rabbits and we need to find out if it is indeed indoor 
air quality, which I think probably plays a large part to that, 
or it is ozone plus something else or it's something else in 
the ambient environment. But just simply lowering the ozone 
standard, I am convinced, is not going to give us the health 
benefits that we seek.
    Mr. McKinley. Thank you very much. I yield back my time.
    Mr. Whitfield. Gentleman yields back. At this time, I will 
recognize the gentlelady from Florida, Ms. Castor, for 5 
minutes.
    Ms. Castor. Good morning, everyone, and thank you, Mr. 
Chairman, for calling this important hearing on the Clean Air 
Act, and I hope the committee and this Congress will not weaken 
the Clean Air Act or undermine the important progress America 
has made in cleaning our air since the 1960s.
    The Clean Air Act does require EPA every 5 years to review 
the air quality standards that govern the air we breathe and 
the law says make revisions as appropriate.
    So last October after thousands of studies and comments and 
recommendations from the Independent Clean Air Scientific 
Advisory Committee, the EPA proposed lowering the air quality 
standards by 7 percent, from 75 parts per billion to 70 parts 
per billion.
    This is an important revision and it keeps America on the 
track of continuing to make progress, and if you look back 
since the Clean Air Act was adopted in the 1960s and then 
amended in the '70s and especially the '90s we have been able 
to--we have the strongest economy in the world and we have been 
able to make progress still with better air to breathe.
    And this is especially important because it has such great 
consequences for our families and neighbors back home. We have 
been able to reduce smog across country. According to the 
American Lung Association, inhaling smog pollution is like 
getting a sunburn on your lungs and it often results in 
immediate breathing trouble. And long-term exposures to smog 
pollution is linked to chronic asthma and other respiratory and 
lung diseases, reproductive and developmental harm and even 
premature death.
    The American Lung Association has determined that there are 
currently almost 150 million Americans living in areas with 
levels of smog pollution that are linked to health problems.
    It is particularly harmful to children whose lungs are 
still developing, particularly harmful to older adults because 
of their age and all of our bodies become increasingly 
susceptible to the assault from dirty air and it is 
particularly harmful to our neighbors and communities of color 
and in low income areas that often struggle with environmental 
justice issues because they live and their children grow up 
next to industrial plants and other large-scale polluters.
    But you have to compliment the industrial community in 
America. They have been able to make great progress, and the ag 
community too.
    So it's a balance, as we move forward. But I am concerned 
that the bill we are considering today is really going to throw 
a wrench into the progress that we are making and despite the 
importance of continuing to make progress, this is not--this 
rule and these new standards aren't going to happen overnight.
    They say States will have between 2020 and 2037 to begin 
to--or to address it and to make progress, and I know the EPA 
has said, ``We are going to work with the States.''
    After reviewing the bill, it is clear to me that H.R. 4775 
would drastically alter the Clean Air Act to weaken air quality 
protections. It would allow more pollution and threaten the 
public health.
    The bill also undercuts our national ambient air quality 
standards process for all other pollutants. That is not 
appropriate.
    These proposed changes would undermine significantly the 
features of the Clean Air Act that have driven important 
progress in improving air quality and public health.
    And I have one specific problem that I wanted to ask 
Mirzakhalili about. It is the definition of exceptional events 
for air pollution such as it would expand that definition to 
include hot days, drought and stagnant air.
    And, unfortunately, what we used to think of as 
exceptionally hot days is now your typical summer day in 
Florida and in other places.
    So what's the practical impact of including these types of 
occurrences in the definition of exceptional events?
    Mr. Mirzakhalili. You are spot on, Congresswoman. It is why 
declaring those conditions which are required to create 
pollution as an exceptional event you are essentially barring--
defining a--you must also define clean air and not--you know, 
whereas before was--there were exceptional events they were 
subject to rigorous demonstration to EPA in order to exclude 
them from assessing the air quality designation.
    Here, we are just--it broadly opens up the definition to 
exactly what you suggested, which is hot days, inversions can 
be now included in a definition of an exceptional event. They 
are everyday events. They are not--they can't be considered and 
shouldn't be considered exceptional.
    Ms. Castor. Well, I share your concern and, as climate 
change continues to exacerbate droughts and heat waves, these 
events are becoming even more common and I have to say this is 
America, we can do this together with industry and with all of 
you as technological experts in concert with the Environmental 
Protection Agency and the Congress. But we shouldn't take a 
step backwards and we shouldn't undermine the Clean Air Act and 
not continue to move forwards.
    Mr. Whitfield. The gentlelady's time has expired.
    At this time, we'll recognize the gentleman from Texas, Mr. 
Flores, for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman.
    I want to talk about the impact of the conflicting 
regulations that have been proposed by the EPA on State 
resources. I will start with you, Mr. Sadredin.
    You testified that your local air district is subject to 
four standards for ozone and four standards for fine 
particulate matter and that each standard, quote, requires a 
separate attainment plan which leads to multiple overlapping 
requirements and deadlines, unquote.
    And so how does your agency harmonize all of these 
overlapping requirements?
    Mr. Sadredin. Unfortunately, under the current state of the 
act with the current framework, we are not able to do that, 
which causes a great deal of confusion for the public, for the 
businesses that have to comply with these redundant requirement 
with multiple deadlines and time lines that they have to comply 
with.
    What we hope this process would allow by giving some 
additional time before the next standard kicks in that perhaps 
we could make a case to EPA that if we took the most stringent 
parts from all these eight standards that we are subject to, 
put them in a single plan with a single set of regulations to 
be able to do that.
    So that is why I don't think this legislation rolls back 
anything. It just gives us the time to do it right and do it in 
a harmonious fashion.
    Mr. Flores. So what you have to deal with now requires 
significant staff and resources and you've got--so you are 
spending all this time and resources on these conflicting plans 
and are we getting any corresponding health benefits out of 
this?
    Mr. Sadredin. We are not, because as I was trying--when 
Congressman McNerney asked me about your accomplishments the 
reason that I mentioned the 1-hour ozone standard is that we 
have been working on the existing standards, throwing in the 
kitchen sink at all of them. Simply setting a new standard will 
not clean the air.
    We still have to get to zero emissions with the existing 
standards. The new standards just make it impossible even if we 
get to zero emissions meet the standards.
    Mr. Flores. Right. Right. The prior questioner talked about 
rolling back--that the bill rolls back several regulations. 
Does it--Mr.--Dr. Shaw, does it roll back any regulations?
    Mr. Shaw. No, it does not. As I understand and read the 
bill, it does not roll back. It simply provides for additional 
time with the implementation of the latest standard but it does 
not roll back those requirements that are in place.
    There is a lot of technological advancements that are--that 
are in place that will continue to be in place and those areas 
that can meet this standard likely will. The challenge is those 
areas that are having difficulty because the technology is not 
there will be additionally penalized. And so this does not slow 
down the progress that we see underway to meet the current 
standards.
    Mr. Flores. Back to the same question that I asked Mr. 
Sadredin--sorry, I am messing your name up--what is the impact 
of the multiple--the conflicting standards on your resources?
    Mr. Shaw. Certainly it takes a huge impact on staff 
resources but also I think it's important to add to--the 
comments are that it also prevents us or minimizes our ability 
to work cooperatively to find those things--when we work and 
engage with the regulated community to find approaches that 
make sense for multiple pollutants that we are trying to 
obtain.
    It's often misperceived that what you do to reduce one 
pollutant also reduces others. Oftentimes, that's not the case. 
There's sometimes a parasitic component to that and raising one 
lowers another, lowering one raises another.
    Mr. Flores. Mr. Cabrera, any comments from you on the 
multiple standards that exist today?
    Mr. Cabrera. Well, we just want to clarify that the Clean 
Air Act has an escalation so you have time lines to meet the 
various standards.
    You have 3 years, then 6 years, then 9 years, and there is 
increasing regulation on businesses every time you don't meet 
the standard. And that is why the background issue, the 
international transport issue is so big because you would be 
increasing standards on localities that have not caused the air 
pollution in the first place.
    Mr. Flores. OK. And Mr. Matheson, would you like to comment 
on the conflicting standards?
    Mr. Matheson. Thank you. We share some of those concerns 
and I think we've been talking generally about two different 
issues.
    One is the standard itself and its health impacts. The 
other is how you implement that, and the implementation does 
have an impact on our air quality.
    When we've got limited resources and are spending that time 
on paper exercises rather than on working on getting the 
information, the science, the data to ensure that in the unique 
chemistry that we see sometimes we are actually targeting those 
emissions that make the biggest difference, not just those that 
are imposed on it.
    Mr. Flores. OK. And there was some commentary that going to 
a 5-year review period--going to a 10-year review period from a 
5-year review period causes great harm.
    I look at the rollout of various standards over the years. 
There was 8 years between the first two--I mean, from '71 to 
'79 before you changed standards.
    Then there was 18 years between '79 and '97, and then there 
was 9 years. So in all this time our environment situation has 
gotten better.
    So it doesn't sound to me like the world ended because we 
weren't adhering to a 5-year standard. Do any of you all 
disagree with that? OK. Thank you. I yield back.
    Mr. Whitfield. Gentleman yields back. At this time, the 
Chair recognizes the gentleman from Texas, Mr. Green, for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman and the ranking member. 
I thank the witnesses for being here today, specifically Bryan 
Shaw, the chair of our Texas Commission on Environmental 
Quality. It's always nice to have a Texan testify here.
    I would also like to acknowledge Alan Matheson, cousin of 
our longtime colleague from this committee, former 
Representative Jim Matheson. I miss Jim because on my side of 
the aisle he voted with me a number of times.
    But it is not secret in Houston we have air quality 
challenges. Just yesterday the EPA granted the Houston-
Galveston-Brazoria region an additional year of compliance.
    The region currently sits on 80 parts per billion, which is 
still above the 2008 ozone standard. So we needed more time.
    That being said, we have come a long way in Houston since 
the 1970s when the ozone measure was 150 parts per billion. I 
think today's discussion is an invaluable exercise.
    While I don't support the majority's legislation, I think 
there is reasonable efforts that can be made to improve 
implementation of NOx.
    Chairman Shaw, in your testimony you stated the Clean Air 
Act's requirement of the EPA ignore technological and economic 
considerations may have made sense 40 years ago but now 
pollution reduction is economically burdensome.
    We've repeatedly discussed the issue of technological 
feasibility and economic achievement. But the Supreme Court has 
stated the most important forum for consideration of 
technological and economic claims is before the State agency 
where you sit.
    Can you--your agency consider the cost in technology in 
drafting a SIP?
    Mr. Shaw. No, sir. We have to come up with a plan that 
meets the standard and we have to satisfy the model. So we have 
to find what approaches where we can make arguments. But we 
have to develop a plan that will achieve the standard.
    Mr. Green. But are you allowed to consider the cost in 
technology?
    Mr. Shaw. I don't believe that I have had any success or 
that we were asked to be able to offer to do anything besides 
meet the standard because of cost and technology. We basically 
have to find a way to get there, even including very draconian 
if necessary.
    Mr. Green. My big concern is if we want to do what's 
technologically possible and hearing the testimony from parts 
of the country that just--unlike in Houston.
    You know, part of our problem is that we need some better 
roads instead of all the dirt that flows up and dust that flows 
up into the air, particularly an industrial area like I 
represent.
    So there's things we can do. But if it is not 
technologically possible I really do think that the State 
agency, as the court said, or maybe EPA ought to consider it. I 
am just glad we got another year so we can continue to work. 
But I wish I could say we would pave those places in my 
district in the last year. I've been working on that for a 
dozen years now.
    But if the State can already consider it by the court order 
why is it not sufficiently flexible to meet the new 
requirements?
    Mr. Shaw. I think the key there is somewhat similar to the 
issue here where we talk about concerns over exceptional 
events. It's that we have no process where we have some 
certainty and ability to actually get--to move the needle based 
on those options.
    We can talk about exceptional events but those are very 
challenging and oftentimes the damage to the location is 
already done because the jobs that you need to be able to 
afford the new environmental benefits get impacted because you 
basically have to go through this process and hoping that you 
get some relief.
    But we typically don't find that relief. And so the 
implications is while there may be the potential for it, it's 
long coming and often not available.
    Mr. Green. What will we do in Texas for the year extension 
we have? Because we still don't meet the standards that, you 
know, that we were earlier.
    Mr. Shaw. Right. Well, we will continue doing the things 
that we are doing, which is looking for new technologies, 
better ways to move forward.
    We continue to try to attack 60 percent of the ozone 
challenges, NOx emissions from mobile sources in this area and 
so we have the innovative programs, the TERP program--Texas 
Emissions Reduction Plan--where we incentivize turning over 
older vehicles.
    So we try to get any fruit we can, recognizing that we need 
a ladder or an extension bucket to get to that fruit these 
days.
    Mr. Green. Well, and in my area we have industrial 
facilities, refineries, chemical plants. But they're 
stationary. You know what they're doing.
    But our problem is we also have tremendous truck traffic 
not only from those plants but also the ship channel and so the 
mobile sources are an issue.
    Is there a split between what the stationary sources are as 
compared to the mobile sources?
    Mr. Shaw. About 60 percent of our NOx emissions are from 
the mobile side of that. So that's where--and the stationary 
sources have been controlled to the point where there is not--
it is very difficult to find technologically and, certainly, 
economically feasible but technologically even feasible 
reductions.
    And so our primary areas for opportunity are continued in 
the mobile sources but those we are not--we are not regulating. 
The Federal Government regulates those. So we can incentivize 
programs to turn over trades trucks and railroad locations and 
diesel engine retrofits.
    Mr. Green. OK. Director Sadredin, in December '15 as part 
of the 2015 ozone standard the EPA released a white paper on 
background ozone, which discussed exceptional events.
    The white paper requested comments from stakeholders. Last 
month, EPA had a workshop to follow up on these. During the 
workshop none of the participants raised the issue of drought 
or stagnation. Some stakeholders are interested in development 
of further guidelines and templates for exceptional events. A 
few, however, were concerned, that spending limited resources 
on development of exceptional events guidance.
    In Texas, we know the issue of drought and in fact I am 
worried we are getting back into it in some cases. Would your 
control district consider additional guidance regarding 
qualifying events a worthwhile use of time or recourse?
    Mr. Sadredin. Thank you for the question. Unfortunately, 
EPA has closed the door on considering drought and these 
extraordinary conditions from being considered as exceptional 
events because the Clean Air Act as written is silent on that 
and EPA has interpreted that as meaning no, you cannot do that.
    So with that door closed we didn't think that we could have 
any productive discussions with EPA because they've already 
told us no.
    We just think a 100-year drought--we'll argue, well, maybe 
100-year droughts that we are facing that will become ordinary 
because of climate change. But we are not quite there yet even 
if you accept that on the face value.
    All this, though, says if you have extraordinary conditions 
such as a 100-year drought under EPA's guide, EPA ultimately 
will be the arbiter on that--does it qualify as an exceptional 
event.
    You still have to follow all the procedures and guidelines 
that EPA has laid out for any exceptional event.
    We are saying that should--the door should be open to have 
that discussion that this was--this was extraordinary and 
should qualify as an exceptional event.
    Mr. Green. Thank you for you answer. Thank you for your 
time. I know I've run over a lot. Mr. Chairman, thank you.
    Mr. Whitfield. At this time, the Chair recognizes the 
gentleman from Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman.
    Mr. Sadredin, my understanding is is that even after a 
nonattainment area is redesignated as being in attainment it is 
still subject to EPA oversight and maintenance plans for an 
additional 20 years. Can you explain if I am right on that 
understanding and how that works?
    Mr. Sadredin. That is correct. As I have said, you know, we 
have made major progress over the years to meet the standards. 
We used to be nonattainment until 2010 for PM 10 and we came 
into attainment.
    But what happens right after that you write a maintenance 
plan, which is essentially identical to a State implementation 
plan. You still have to maintain all of those regulations that 
you had in place if all of a sudden you end up in, you know, 
not meeting the standard or various new requirements that kick 
in.
    So it's a never-ending process in terms of maintaining the 
control and you will never have an opportunity or a 
circumstance where you can roll back any of the existing 
measures that you have put in place to come into attainment.
    Mr. Griffith. All right. So let me--let me see if I can 
clarify and go from there, and I see some other, particularly 
Dr. Shaw, nodding his head.
    So you've now--you've now hit the attainment and you said 
you have to put a maintenance plan in which, to me, makes some 
sense. But then you said you have to keep all the controls.
    Does that mean that your new--you can have a new plan that 
says here's what we are going to do to maintain or do you have 
to keep all the controls in place that were in place even if 
there's no evidence that a particular control was relevant to 
bringing you into attainment?
    Mr. Sadredin. Essentially, when you put a maintenance plan 
you cannot roll back any existing regulations that you had. If 
there is a potential scenario like that, that would be the 
case. That is exactly as you describe it.
    But given that we have four--eight other plans to meet with 
there is always regulations that are needed to meet those new 
requirements and they can also be used to satisfy the existing 
maintenance plan.
    Mr. Griffith. And I just want to make sure that I am not 
miscommunicating because my wife accuses me of doing that 
sometimes. So as I understand it, even if there is--even if 
there is evidence that one of the plans had nothing to do with 
you coming in to attainment and may just be superfluous, you 
still have to maintain that particular component?
    Mr. Sadredin. Yes. There is a general legally accepted 
provision that once a particular control measure becomes part 
of a State implementation plan you can never relax that 
regulation.
    Mr. Griffith. OK. Yes, sir. My time is running out so if 
you could be brief.
    Mr. Mirzakhalili. I will be--I will be quick.
    Mr. Griffith. You disagree?
    Mr. Mirzakhalili. I disagree. I think, first of all, the 
way EPA has addressed it, the standards of clean data 
determination in a lot of areas get--be designated to attain 
them without having to develop a maintenance plan.
    So there isn't another way of getting to where the 
requirements don't carry over. For a maintenance plan 
developments if the plan is--it can, it gives you the 
flexibility to show that you are achieving the reductions and 
maintaining those reductions while mixing and matching.
    We can do that under our attainment plan strategies. I can 
take and measure out what I have to replace it with something 
else that gives me that reduction so that I can--I can show 
that attained.
    Mr. Griffith. OK. So the distinction would be, however, if 
you've got a--if you're taking something out that does nothing 
but you have to put something back in, based on what I am 
hearing from both of you but it's a legalese thing, I may still 
have to put something back in even if I don't think it does any 
good if I am taking something out that doesn't do any good 
because you have to replace it with something that does the 
same type of thing.
    And so--and we could debate this all day, but it sounds 
like to me that while there may be a slight distinction between 
what the two of you are saying it is basically the same.
    You still--you've still got to plan. You've got a 
component. You can't just eliminate that component if it turns 
out to be not accurate.
    I've got to move on because I do have another question I 
want to get in and I don't have much time left. Mr. Sadredin 
again, when the EPA revokes a standard, do States or localities 
continue to be subject to obligations under those standards?
    Mr. Sadredin. I looked at Ms. McCabe's testimony and that 
was cited as one the streamlining measures in the act 
currently, that if you revoke a standard, say ``no harm, no 
foul,'' you can move on. I have to say, first of all, before I 
comment on Ms. McCabe's testimony she has always been gracious, 
generous with time and creativity in helping us do everything 
that we need to do and we worked well together with her and 
with EPA.
    And in fact, I was happy that in her testimony she did not 
object to a couple of things that are in this bill that we had 
advocated for the contingency measure elimination for extreme 
areas and also economic feasibility with relation to RFPs.
    But on that particular issue relating to revocation of the 
standards, I think it's a bit misleading to say when the 
standard goes away we don't have to do anything.
    As I am sitting here before you, June of this year we have 
to write a plan for the 2008 ozone standard, which is about to 
be revoked.
    We have a plan in place actively for the 1997 ozone 
standard. We still have a plan in place for the 1979 ozone 
standard. Everything that is in the act remains in place when 
you revoke a standard.
    The only thing that goes away is you can do a new 
transportation budget. Otherwise, every other requirement stays 
in place and to somehow say revoking the standard takes away 
requirements it's absolutely incorrect.
    Mr. Griffith. I appreciate it, and I yield back. That's the 
end of my time. Thank you, Mr. Chairman.
    Mr. Whitfield. Chair recognizes the gentlelady from 
California, Mrs. Capps, for 5 minutes.
    Mrs. Capps. Thank you. Thank you, Chairman Whitfield and 
Ranking Member Rush, for holding this hearing. Thank you to 
each of you witnesses for your testimonies today.
    You know, I am sort of like the catch-up questioner now, 
and many of the things probably I will say or ask may have been 
said one way or another. But I want to make sure we get some 
things on the record.
    Over 40 years ago, our predecessors in this place 
recognized they had the power to protect the health--this is 
about health--of all Americans and the environment in which we 
live.
    Several landmark laws were created to do just this right 
about that sort of pivotal time. During the 1970s, even before 
we saw the creation of the National Environmental Policy Act--
NEPA--the Clean Water Act, the Safe Drinking Water Act, the 
Endangered Species Act--so many at that particular time.
    In addition, Congress passed a significant overhaul of the 
Clean Air Act in 1970. All of these laws have provided the 
foundation for a safer, cleaner environment and have 
drastically improved our public health, and it goes without 
saying we are still benefitting from the creation of these 
landmark laws.
    However, since the enactment of the laws we have seen 
countless attacks to weaken them despite the fact that we are 
benefitting from them, and I think this is the nature of the 
society in which we live.
    Instead of prioritizing the public health and the 
environmental safety issues, we have seen push after push to 
marginalize these protections that are in place.
    So my questions are now for you, Mr. Mirzakhalili. In your 
testimony, you highlighted--I probably butchered your name--
some serious concerns with this legislation we are discussing 
and I share--I will just be honest--I share many of these 
concerns with you.
    One of my major concerns relates to Section 3(b), which 
changes the criteria for establishing an air quality standard 
from one that is based solely on protecting public health--true 
to confession, I am a public health nurse by background--to one 
that includes the consideration of the, quote--and we have been 
using this phrase a lot--``technological feasibility'' of the 
standard, and my background tells tells you that I have always 
appreciated that we should recognize that protecting our health 
is really the number-one priority.
    In fact, you stated that this provision that we are 
discussing today could--I quote from your testimony--unravel 
the entire framework of the Clean Air Act. Those are pretty 
strong words.
    My first question--do you believe that economic or 
technological feasibility should be considered in the air 
quality standard-setting process at all? Is there a reason that 
we should stray from the precedent of only considering public 
health?
    Mr. Mirzakhalili. I do not.
    Mrs. Capps. You probably said this, but if you'd say it 
again.
    Mr. Mirzakhalili. Yes. No, I say it again because I think 
it's worth repeating that the economic affordability shouldn't 
be something that is used to set the standard. It is the 
science that should dictate what the lungs can handle, how the 
body responds, and we are charged with protecting the sensitive 
individuals and the population. The standards need to reflect 
that.
    Now, how we manage to implement that, that's where the 
rubber hits the road and the economic and technological 
feasibility come into play.
    We should not put the target where an arrow lands. That is 
just not the way we do things--not as a nation. That's not how 
we've done it and that's not how we should proceed. I 
understand the challenges of Mr. Sadredin's exasperation with 
meeting a real stubborn problem with air quality.
    I understand my colleagues to my left here about their 
issues as well and, you know, the difficulties that Mr. Shaw--
that Dr. Shaw has with the science behind this. I think it's 
something that's going to get litigated and debated. But that's 
where it should end. Science should dictate where the standard 
is.
    Mrs. Capps. And you've sort of said this too even just now, 
but why is it so important to separate the cost--consideration 
of cost from setting the standard?
    Mr. Mirzakhalili. It becomes what can we afford.
    Mrs. Capps. Right.
    Mr. Mirzakhalili. This is the health care that we can 
afford. This is the health protection that we can afford and 
let's--and where does this slippery slope end?
    On the East coast we can--we like to pay more and therefore 
we get better protection, better standard and some localities 
get--they can't afford it so they get a higher standard.
    How do we do this? This is--this just doesn't make sense. 
There has to be a standard that science indicates is going to 
protect the public health and that's what we should follow.
    Mrs. Capps. And so, again, you touched on this but is 
there--are we really clear in your mind of the charge to the 
United States Congress in the--in this area and is there a more 
appropriate place for the kind of consideration that is brought 
up in this legislation?
    Mr. Mirzakhalili. I think the consideration for--goes to 
the implementation phase of it and I think it can be done 
administratively through how EPA implements--it does 
implementation rules and how us as professionals manage to meet 
the air quality challenges that we face.
    Mrs. Capps. OK.
    Mr. Whitfield. Gentlelady's time has expired.
    Mrs. Capps. Thank you.
    Mr. Whitfield. At this time, I recognize the gentleman from 
Oklahoma, Mr. Mullin, for 5 minutes.
    Mr. Mullin. Thank you, Mr. Chairman, and thank you, panel, 
for being here.
    I don't think it's any secret where my heart lies with the 
EPA. I think they overreach every day and are putting more and 
more pressure on States, on counties, manufacturers, job 
creators and the whole nine yards.
    And it goes into--it goes into questions what are they 
thinking. Are they listening? Are they paying attention to 
what's actually happening out there? I'd say no.
    And Dr. Shaw, I'll start with you just simply because you 
got a hat on the table and I--Lord, I appreciate seeing that. 
Don't see that enough up here.
    But I am kind of interested to know, you don't look like 
you had to be bald. Did you just choose to do it? I mean, if I 
wore a hat all the time, it would be sticking to my head if I 
was----
    Mr. Shaw. My wife has breast cancer, and when the chemo 
took her hair I decided to lose mine in support of her.
    Mr. Mullin. Well, what's her name?
    Mr. Shaw. Dana.
    Mr. Mullin. Dana. I will tell you right now, just because I 
feel like I stuck my foot in my mouth, I will be praying for 
Dana.
    Mr. Shaw. Thank you. Thank you.
    Mr. Mullin. And God bless you for being such a supporting 
husband.
    Mr. Shaw. She's got the tough role, but thank you.
    Mr. Mullin. Yes, but you're there and you're going to be 
walking her through the whole thing. So God bless you for that.
    Switching gears just a second, you know, you're from Texas, 
and, even though we beat you in football all the time, I really 
do appreciate the idea that we work together and we have 
similar experiences.
    Explain to me a little bit about what this ozone rule is 
going to do to the State and maybe even the cost that is going 
to require you all to take on at a time when really the--you 
know, we are an oil and gas State, too--at a time when really 
we need to be looking at shoring up our State and the jobs 
within it, not costing jobs by spending money where it's not 
needed.
    Mr. Shaw. Thank you. I'll start with saying we recognize 
that we are not--as a State agency we are not choosing between 
the environment and the economy.
    We have to have both or we'll have neither and a big part 
of what we are looking at also when we think about the public 
health component of this is especially for a standard that has 
very limited and questionable benefits.
    We're at a point now with the great success we've had in 
lowering our pollution and cleaning up our air and water across 
the State and across the country is that your health impact is 
likely more driven by your opportunity for economic success 
than it is by the environment that you're faced, and we want to 
continue to clean that environment.
    But we take very seriously that some of what we can do to 
help our people to have a better healthier life is to pick them 
up out of poverty and make sure they have good job 
opportunities.
    And so when we look at this issue, one that has 
questionable scientific value for moving forward and we look at 
the fact that we are compounding by putting a number of 
regulations on top of one another and it makes it difficult 
both for the agencies to develop the rules but also for 
industry to be able to be implementing those and us to work 
with them, I see this as an opportunity to improve our 
environmental outcome as opposed to one as might be otherwise 
suspected as one that helps industry to compete.
    I think it does help industry to have more reasonable time 
frames. But I am convinced if we take advantage of a length and 
time opportunity especially and we look at a better 
scientific--more rigorous scientific evaluation we'll actually 
get the better environmental health outcomes.
    Mr. Mullin. Well, and by the EPA's on a mission they said 
that the 2015 ozone standard will be reached by 2025 by just 
implementing the 2008 rule. So it calls into question why.
    Mr. Shaw. It certainly does, and that's one of the comments 
I sort of alluded to earlier. Their own data suggests that most 
places are going to get there without the rule so why do you 
need the rule, especially if it's going to cause undue economic 
impact on a number of areas that really can't afford it.
    And, quite frankly, the market does a very good job of 
driving innovation and we have a lot of innovation in place 
that if we can allow that to move forward we could instead of 
going through this process of developing complex rules to try 
to meet a standard that is very close to background in many 
areas--we have some areas where 65 parts per billion is an 
often background--we could instead focus on what are the real 
environmental and health issues that are out there that need to 
be tackled next.
    Mr. Mullin. And just to kind of make a point here and maybe 
it's been brought up already, but even the National Park 
Service is saying that the Grand Canyon and the Sequoia 
National Forest where I am sure there's a tremendous amount of 
industry and work going there, it is going to be out of 
compliance with this.
    So it does leave us all the question what is the motive. 
Other than just busy work, what is the motive behind this?
    And, look, I live--my kids are the fourth generation on our 
farm and I want clean air and clean water, too. A creek runs in 
front of our place. I used to drink out of it as a kid.
    I don't think we are arguing that, and we are doing--we are 
good stewards of the land behind us, but we don't need this 
rule. It's undue cost and undue harm to States and 
manufacturers around.
    And so we'll be praying for Dana----
    Mr. Shaw. Thank you.
    Mr. Mullin [continuing]. Sir, and I do sincerely mean that. 
God bless you for being such a supporting husband to her, and I 
yield back. Thank you, sir.
    Mr. Shaw. Thank you.
    Mr. Whitfield. The gentleman yields back, and that 
concludes the questions today except for me, and I've waited 
patiently for quite a while now, Mr. Rush.
    But I would just like to make this comment, that certainly 
Congress has a lot of purposes but one purpose is to provide an 
opportunity for constituents who have a problem to come and 
petition the Government for some help, and that is what I view 
this panel as.
    I mean, some of you are having some problems in your States 
of meeting a Federal requirement. I know that Mr. Mirzakhalili 
has a different view on some of this than some of you, although 
he has admitted, I believe, that there are some areas in 
Delaware that are in nonattainment, as well, but not to the 
extent that we have in the San Joaquin Valley or certainly 
Arizona, parts of Utah, or even in Texas.
    And one question I wanted to ask you, Mr. Sadredin: In the 
past the EPA has advised our committee that, while it doesn't 
consider technological and economic feasibility in setting the 
standard, it does consider it when implementing it. Would you 
agree with that, or has that been your experience?
    Mr. Sadredin. That's definitely a bit misleading and 
incomplete view of the world and the realities that we face. 
There has been a number of discussions here about economic 
feasibility and setting the standard.
    Mr. Whitfield. Right.
    Mr. Sadredin. I believe that standards should be set with 
science only and I don't think this bill really goes away from 
that.
    What it says is that when CASAC makes a recommendation and 
they give a range to the administration to consider, right now 
it goes through the administration.
    Depending on who's in charge they make these various 
assumptions and set the standard where it needs to be and then 
they come up with something. This really brings some order, 
some law into how you can actually pick within that range what 
is an appropriate standard.
    But to your exact question, unfortunately, Supreme Court 
ruled that since Congress was silent economic feasibility 
cannot be considered. It wasn't that Congress intentionally----
    Mr. Whitfield. Right.
    Mr. Sadredin [continuing]. And specifically said do not 
consider economic feasibility. But the bottom line is when the 
standard is set it says you have to come into attainment by 
such and such year.
    You have X number of years. There is no cost effectiveness 
economic feasibility you can--argument you can use to say we 
are not going to meet that deadline.
    Mr. Whitfield. Right. And that's how many of us feel and 
the forums indicated that that when you have laws that have 
been out there for a while even the Clean Air Act, relating to 
EPA, Congress should be able to respond to address some of 
these problems that are there.
    Now, you know just from the questions today there are a lot 
of members of Congress who say because it's EPA nothing should 
be changed because health is the most important issue.
    And yet, we do understand that poverty does have a direct 
impact on health. Clean air is not the only thing. And so the 
thing that struck me today is listening to the four of you. I 
mean, you all touched on it a little bit more than our 
gentleman friend from Delaware.
    But you can't meet the standards in many areas. It cannot 
be done, and so what is the impact of that? What does that mean 
for the people in your area when you cannot meet the standard? 
Mr. Cabrera.
    Mr. Cabrera. What it means is those requirements on 
business that keep business from opening up. What it means is 
that there's requirements on agriculture that keeps agriculture 
less efficient and what it means is that we are imposing 
restrictions on American business for pollution that's coming 
from international sources.
    Mr. Whitfield. Correct. Correct.
    Do you want to make a comment, Mr. Sadredin?
    Mr. Sadredin. In San Joaquin Valley, unfortunately we have 
a lot of communities of color with great deal of poverty, where 
economic well-being is the key factor in quality of life.
    If we are not able to meet these standards, draconian 
sanctions will kick in. No new businesses can locate in the 
area without significant costs. We will lose highway funding, 
Federal takeover and then nonattainment penalties to the tune 
of about $40 million a year. Right now we are paying for the 
1979 1-hour rules on standards.
    Mr. Whitfield. And Mr. Matheson, I know up in Utah, I mean, 
even things going on in Asia has an impact on you, right?
    Mr. Matheson. It does, and we've been able to measure that 
and see that in several counties we've seen pollution come in 
that's very close to the standard or above.
    Mr. Whitfield. Right. We know the International Monetary 
Fund is having their meeting in Washington right now and 
they're talking about world stagnation.
    They're talking about excessive regulations, and so 
Congress does have a responsibility when you have a predicament 
where a Federal standard cannot be met.
    Now, this is the standard for the country but yet under the 
clean energy plan, which was stayed by the Supreme Court, EPA 
went to individual States and set different standards in the 
States for the States. Yet, this is the standard that applies 
and even when EPA looks at cost they automatically exclude any 
costs relating to California because California is not going to 
be able to meet the standard.
    And so we have a real problem and one comment I would make 
about Mr. Olson's legislation is some have suggested that we 
are mandating that only--it be reviewed every 10 years.
    That is not the case. 4775 does not bar EPA from setting a 
new national ambient air quality standard whenever they want to 
but they're not required to review it for at least 10 years.
    Every 10 years they've got to be required instead of five. 
So that information is misleading.
    And so I want to thank all of you for being here today. We 
appreciate your time and we look forward to continuing our 
efforts to try to pass this legislation.
    I have some documents here I want to introduce into the 
record. Have you all seen it? You all seen that one?
    So without objection, we'll enter those into the record, 
and did you----
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. I have two letters, Mr. Chairman, I'd like to 
enter.
    Mr. Whitfield. OK. Without objection, we'll enter those two 
letters into the record, as well, and we'll keep the record 
open for 10 days.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. All right.
    Mr. Whitfield. And yes, well, unanimous consent for any 
member who wants to enter a statement in the record, we'll do 
that as well.
    I think all of them are here, though, aren't they? Oh, I 
felt like all of them were here. But it's an important issue.
    So that will conclude today's hearing. Thank you all once 
again for joining us and for your invaluable input.
    Hearing is now adjourned.
    [Whereupon, at 12:38 p.m., the hearing was concluded.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    This committee takes seriously its oversight 
responsibilities under the 1970 Clean Air Act. It is important 
for us to look back and acknowledge what this law has 
accomplished--a 30 percent reduction in ozone levels since 
1980. But it is equally important to recognize what is no 
longer working and needs to be fixed for the 21st century, and 
the agency's current ozone program with its two overlapping 
regulations is a prime example. Fortunately, there is a 
bipartisan solution that works to simultaneously protect jobs, 
economic growth, and public health--H.R. 4775, the ``Ozone 
Standards Implementation Act of 2016.'' The legislation cuts 
red tape and puts EPA's ozone program back on track towards 
achieving cost effective reductions for ground-level ozone.
    EPA itself delayed the implementation of its 2008 ozone 
standard and last year the agency finally provided States with 
necessary implementing regulations. But instead of focusing on 
working with States to achieve the 2008 standard, the agency 
went ahead and finalized a new standard and is now requiring 
States to simultaneously comply with both.
    Even EPA admits that the second rule would not 
significantly contribute to ozone reductions that are already 
occurring under existing regulations, but the rule instead 
would increase permitting and other compliance costs, as well 
as present administrative challenges for States and local 
communities. Make no mistake, counties designated as in 
nonattainment with EPA's ozone standard face serious limits on 
new economic activity. It's essentially a kiss of death for 
economic growth for communities in Michigan and every State. 
Factory expansions to new construction may have to be placed on 
hold until the necessary pre-construction permits are obtained. 
Backyard barbeques could even be limited.
    And even after compliance is achieved, EPA would still 
impose constraints-all for reductions that EPA claims will 
largely occur regardless of new compliance regimes. Regulations 
that are unnecessarily costly and restrictive, and that result 
in overlapping requirements and deadlines, are the last thing 
job-creators in Michigan and across the country need. 
Businesses will go out of their way to avoid setting up shop in 
any area that's close to being in noncompliance.
    H.R. 4775 introduces a dose of needed commonsense to EPA's 
ozone program. It extends the implementation schedule for the 
new ozone standard to allow the 2008 standard to be implemented 
first. It would also harmonize the new ozone standard with 
other existing regulations that EPA projects will reduce ozone 
levels across the Nation. Most importantly, the bill provides 
States with a reasonable path forward for implementing new 
ozone standards while also updating the Clean Air Act to make 
this law workable for States and communities in the years 
ahead.
    A Clean Air Act that continues to drive down pollution 
without causing undue damage to jobs and the economy is an 
environmental legacy we should be striving for and one that the 
bipartisan Ozone Standards Implementation Act will help 
achieve.

                Prepared statement of Hon. Steve Scalise

    Here in the United States, we have achieved something 
extraordinary: economic growth and expansion have not led to 
dirtier air. Quite the opposite, we have seen background levels 
of pollution steadily decline in recent years, and the quality 
of the air we breathe continues to improve. However, looking at 
the onerous regulations coming out of the Environmental 
Protection Agency (EPA), you might believe that no gains have 
been achieved. You see, EPA--through its periodic review and 
implementation of National Ambient Air Quality Standards 
(NAAQS)--seems to think that even background levels of certain 
pollutants must be eliminated. Which begs the question: how 
will this be accomplished? The short answer is: EPA has no 
idea.
    The Ozone Standards Implementation Act of 2016 goes a long 
way toward bringing some clarity and sanity to the EPA 
rulemaking process related to ambient air quality standards. To 
that end, the bill requires that the new standard for ground-
level ozone not be implemented until 2025--which makes sense, 
since EPA does not estimate that any of the benefits will be 
realized until that time. Further, the bill changes the review 
period for criteria pollutants under the Clean Air Act from 5 
years to 10. This is a practical change that will give 
stakeholders more certainty. Instead of reviewing the criteria 
pollutants every 5 years, the EPA has chosen to change the 
standards for those pollutants every 5 years. This has resulted 
in a kind of intra-agency competition of which set of 
bureaucrats can promulgate the most stringent air quality 
regulations without regard for cost or economic impact. A 10-
year window in which to review criteria pollutants is simply 
better than 5.
    When it comes to transparency, I am glad that language from 
my Promoting New Manufacturing Act has been included in the 
Ozone Standards Implementation Act of 2016. As it stated last 
Congress, the language requires EPA to put out guidance on how 
to comply with the new standard at the same time the rule is 
published. If EPA does not do this, the standard does not take 
effect until the agency gives guidance. This is critically 
important for manufacturing investment--particularly in the 
petrochemical sector, in which investment decisions are made 3, 
5, or even 10 years in advance--as companies need to know what 
the rules will look like in the years ahead. In addition, it 
took EPA 7 years to put forth guidance on the ozone standard 
that was issued in 2008. This is unacceptable.
    These much-needed changes will bring our clean air laws 
into the 21st Century and will send the necessary signal to the 
investment community that the United States is still open for 
business. No longer will nameless, faceless Washington 
bureaucrats be able to stifle American innovation. Therefore, I 
am proud to give my strong support to the Ozone Standards 
Implementation Act of 2016 and look forward to its favorable 
consideration by this committee and the full House of 
Representatives.

[GRAPHICS AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
